Tennessee Valley Region

                                                                                                                                                                                                                                                                                                   W .        V .



                                                       I   L       .
                                                                                                                                                                         K    E       N T U C K                     Y
                                                                                                                    Paradise
                                                                                                                    Fossil Plant
                                                      Shawnee
                                                    Fossil Plant                                                                                                                                                                                             V    I    R    G     I     N   I A
                                                                              Kentucky
M   I   S       S       O    U    R    I                  Marshall           Dam & Lock                                                                                                                                                                                                     Clear Creek
                                                Combustion Turbine
                                                                                                                                                                                                                                                                                               Beaver Creek

                                                                                                                                                                                                                                                             Ft. Patrick Henry          South
                                                                                                                                                                                                                                                                                       Holston
                                                                                                                                                                                                                                                                           Boone
                                                                                                                                                                                                                                                                                      Wilbur
                                                                                                                                                                                                          Doakes              John Sevier Fossil Plant
                                                                                                                                                                                                           Creek                              & Dam
                                                                                    Cumberland                                                                                                                                                                                   Watauga
                                                                                    Fossil Plant
A   R   .                                                 Gleason                                                                        Gallatin Fossil Plant
                                                      Combustion Turbine                                                                 &Combustion Turbine                                                                     Cherokee
                                                                                                                                                                                                                     Norris

                                                                                                                                                                                                               Bull Run                       Nolichucky
                                                                                           Johnsonville                                                                                                        Fossil Plant         Douglas
                                                                                           Fossil Plant &
                                                                                           Combustion Turbine                                                                         Kingston             Melton
                                                                                                                                                                                       Fossil              Hill Lock
                                                                                                                                                                                        Plant              & Dam

                                                           T        Cedar E                  N                 N               E               S   Great Falls   S                E                  E        Ft. Loudoun Dam & Lock
                                                                Pin Oak                                                                                                                                      Tellico                                             N O R T H
                                    Lagoon Creek                                  Redbud
                                  Combustion Turbine           Beech
                                                                                 Dogwood                                                                                Watts Bar         Watts Bar                                                           C A R O L I N                           A
                                                                       Pine                                                                                          Nuclear Plant        Dam & Lock
                                                                             Lost Creek
                                                                        Sycamore
                                                                                                                                   Normandy                                                                              Fontana


                                                                                                                                                   Sequoyah Nuclear Plant
                                                                                                                                                                                              Apalachia           Hiwassee
                                                                                                                            Tims Ford Dam                                          Ocoee #1
                                                                                                                                               Chickamauga Dam & Lock                         Ocoee #2                  Chatuge
                        Allen Fossil Plant,                                                                                                                                                                                                                                S O U T H
                        Combustion Turbines, & Methane Facility                Pickwick Landing Dam & Lock                               Nickajack Dam & Lock

                                                                                 Colbert Fossil                                                                  Raccoon
                                                                                                                                                                                               Ocoee #3            Nottely                                              C A R O L I N                          A
                                                                                    Plant &                                                                      Mountain
                                                                                  Combustion             Wheeler Dam                                             Pumped                                  Blue Ridge
                                                                                    Turbine              & Lock                              Widows Creek        Storage
                                                                                                                 Browns Ferry                 Fossil Plant
                                                                                                     Wilson      Nuclear Plant
                                                                                                      Dam
                                                                                                     & Lock
                                                                                      Cedar Creek
                                                                                       Little Bear Creek                  Guntersville
                                                                                                                          Dam & Lock                                                                                                                                  LEGEND
                                                                                   Bear Creek
                                                                                                                                                                                                                                                         State Line
                                                                                   Upper Bear Creek
                                                                                                                                                                               G      E   O      R       G    I    A                                     Water
            M       I    S    S    I   S   S    I     P    P       I
                                                                                                                                                                                                                                                         Power Service Area
                                                                                                                                                                                                                                                         TVA Watershed

                                                                                                           A    L   A   B     A    M     A                                                                                                               TVA Hydroelectric Dam
                                                        Caledonia
                                                Combustion Turbine
                                                                                                                                                                                                                                                         TVA Non-Power Dam
                                                                                                                                                                                                                                                         TVA Coal-Fired Plant
                                                                                                                                                                                                                                                         TVA Nuclear Plant
                                                                                                                                                                                                                                                         TVA Combustion Turbine Plant
                                                                                                                                                                                                                                                         TVA Pumped-Storage Plant
                                                                                                                                                                                                                                                         TVA Customer Service Office
                                                    Kemper
                                                Combustion Turbine                                                                                                                                                                                       TVA Economic Development Office
                                                                                                                                                                                                                                                         Green Power Switch® Solar Site
                                                                                                                                                                                                                                                         Green Power Switch® Wind Site
                                                                                                                                                                                                                                                         Green Power Switch® Methane Site
                                                                                                                                                                                                                                                         0            20          40             60 mi.
                                                                                                                                                                                                                                          June 2006                                                       N
Table of Contents
 Message from the Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

 Executive Summary.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

 Office of the Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 11

 Special Report – Securing Information Technology.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17

 PCIE Awards for Excellence .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18

 Audits.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21

 Inspections.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27

 Investigations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33

 Legislation and Regulations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37

 Appendices.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40

 Appendix 1 – Index of Reporting Requirements
 Under the Inspector General Act .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

 Appendix 2 – Audit Reports Issued .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42

 Appendix 3 – Audit Reports Issued With Questioned
 Costs and Recommendations for Better Use of Funds.  .  .  .  .  .  .  .  .  .  .  .  .  . 44

 Appendix 4 – Investigative Referrals and Prosecutive Results.  .  .  .  .  .  .  .  .  . 44

 Appendix 5 – Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45

 Glossary, Abbreviations and Acronymns.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46




                                                                                                         0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                                                         0 0 S E M I A N N U A L _ R E P O R T _ P G 3 0 1 0
                                                                                                         1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
01101011100101010101110001011011001010101010101110001010100010100001101001
00011010100111010100010111011011101000001010100010101011100000111010101011
01101011100101010101110001011011001010101010101110001010100010100001101001
000110101000001011101101110100000101010001010101MESSAGE1100000111010101011
01010101010111010100111101010111010101010101010101010101FROM_THE1110100101
000010010101100011010100111101000101110110111INSPECTOR_GENERAL010100010101
00011010100111010100010111011011101000001010100010101011100000111010101011
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
00001010101110000011101010101100011011101010100101010101010101101011001011




   0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
   0 0 S E M I A N N U A L _ R E P O R T _ P G 4 0 1 0
   1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
                                              Message From The Inspector General
                                              in Washington, D.C., with an Award of        Congress “fully and currently informed
                                              Excellence. Our auditors who worked          about problems and deficiencies relating
                                              in this area are justly deserving of this    to the administration of such programs
                                              special commendation for their contri-       and operations and the necessity for and
                                              butions to a more effective and robust IS    progress of corrective action.” We believe
                                              and IT program at TVA.                       that our benchmarking reports such as
                                                                                           the one on customer relations will better
                                              I also want to congratulate our Inves-
                                                                                           serve Congress, the TVA Board, and the
                                              tigations department and its team of
                                                                                           residents of the Tennessee Valley.
                                              investigators and auditors for their PCIE
The United States is facing an energy         Award. The excellent work they did in        As always, we are aware of the fact that
crisis of historic proportions and when       the Kinder Morgan case achieving our         our work was made infinitely better by
coupled with the recent national eco-         largest civil settlement ever truly merits   the high level of support for our recom-
nomic instability, these two factors          such recognition.                            mendations that we received from both
present utility companies like TVA with       This semiannual period we introduce
                                                                                           the TVA Board and TVA management.
unique challenges. The electric utility in-   a new series of inspection reports all
dustry is a very capital intensive industry   designed to answer the basic question,
requiring TVA to make large scale capital     “How is TVA doing?” My observation
investment decisions. Risk is inherent        after more than five years as the Inspec-    Richard W. Moore
in the process. How TVA manages those                                                      Inspector General
                                              tor General at TVA is that while there
risks is particularly important today. We     are multiple sources of information
examined TVA’s enterprise risk manage-        about TVA, many are hyper-technical
ment program in this semiannual report-       and many are simply anecdotal – neither
ing period as part of our continued vigil     adequately informs TVA stakeholders
as to how TVA is coping with challenging      as to exactly how TVA is doing in key
conditions.                                   areas. Some sources require interpreta-
Like many organizations in America            tion from TVA management which lacks
today, IT security is a significant risk      needed objectivity. With our reports on
at TVA and one that is being carefully        how TVA is doing with customer rela-
examined both by TVA management               tions, financial strength, operational
and the OIG. TVA is making admirable          performance, and environmental stew-
strides to secure information technology      ardship, we hope to provide a reliable
in an ever increasingly risky environ-        and readable analysis of “How TVA is
ment. Our work in this area was rec-          doing.” The reports follow the tradi-
ognized by the President’s Council on         tion of Inspectors General in keeping
Integrity and Efficiency this past October    the head of federal agencies and the



                                                                    0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                    0 0 S E M I A N N U A L _ R E P O R T _ P G 5 0 1 0
                                                                    1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
01101011100101010101110001011011001010101010101110001010100010100001101001
00011010100111010100010111011011101000001010100010101011100000111010101011
01101011100101010101110001011011001010101010101110001010100010100001101001
00011010100EXECUTIVE_SUMMARY011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
00011010100111010100010111011011101000001010100010101011100000111010101011
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
00001010101110000011101010101100011011101010100101010101010101101011001011




   0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
   0 0 S E M I A N N U A L _ R E P O R T _ P G 6 0 1 0
   1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Executive Summary
Summary of Representative Audits and Inspections
Cyber security is crucial to the opera-                                                         for SOX compliance. In addition,
                                               ‰ Our annual audit of TVA’s infor-
tions of the Tennessee Valley Authority        mation security program, which is                we re-tested selected controls in 14
(TVA) as it operates part of this Nation’s     performed in accordance with Federal             processes during the 4th fiscal quarter.
critical infrastructure. The number of         Information Security Management Act              Our findings included: needed im-
vulnerabilities in computer systems            (FISMA), determined that while TVA               provements in control design, control
has grown significantly over the years         continues to make progress in imple-             activities not operating as intended,
and the potential for harm is great. The       menting required information technol-            inadequate documentation retained
Office of the Inspector General (OIG) is       ogy (IT) controls, additional controls           to demonstrate the control operated
working to identify vulnerabilities to         are needed to: (1) improve oversight and         in the period tested, gaps in the con-
TVA’s computer equipment, systems, and         evaluation of contractor systems,                trol network, and other documenta-
network. The OIG is recommending pro-          (2) complete system certifications and ac-       tion-related improvements.
cedures to reduce and eliminate vulner-        creditations, (3) define and track configu-   ‰ Our review of TVA’s external audi-
abilities as well as to secure equipment       ration management metrics, and (4) con-       tor’s review of TVA’s fiscal year (FY)
and sites. Our work in this area has           sider e-authentication risks at TVA.          2008, 2nd quarter, financial information
earned an Award of Excellence from the
                                                                                             disclosed no instance where Ernst &
President’s Council on Integrity & Ef-         ‰ In support of TVA initiatives
                                               to comply with Section 404 of the             Young LLP (E&Y) did not comply, in all
ficiency. In this issue of our Semiannual
                                               Sarbanes-Oxley Act of 2002 (SOX), we          material respects, with generally accepted
Report (SAR), we feature some of the cy-
                                               completed testing in the IT and financial     government auditing standards.
ber security work we have accomplished
during the past six months as part of our
                                               reporting controls areas. These projects      ‰ Preaward audits of cost proposals
                                               were designed to provide the Vice Presi-      submitted by companies proposing to
audit, inspection, and investigative work,
                                               dent and Controller with information          provide engineering and construction
all of which is summarized throughout
                                               for TVA to assess its internal control over   services identified a total of $28.8 mil-
this report. Highlights for all of the OIG’s
                                               financial reporting as of September 30,       lion in potential savings opportunities
work include the following:
                                               2008.                                         for TVA to negotiate. Some of our more
                                                                                             significant findings included: (1) bill-
                                                  e We tested IT controls for 14 ap-
                                                  plications and seven IT control areas.     ing rates that were inflated because they
                                                  Overall, we noted opportunities to         were not cost-based, (2) labor rates that
                                                  improve SOX documentation, operat-         were based on average salaries instead
                                                  ing effectiveness of controls, and areas   of actual salaries, (3) labor rates that did
                                                  where control gaps existed.                not accurately reflect the company’s his-
                                                                                             torical costs, and (4) overstated 401(k)
                                                  e We tested financial reporting con-       cost recovery rates. TVA management is
                                                  trols in 35 of about 68 key business       using the results of our findings to nego-
                                                  processes determined to be in scope        tiate better contract terms. _




                                                                     0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                     0 0 S E M I A N N U A L _ R E P O R T _ P G 7 0 1 0
                                                                     1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
                                                                                         a review to assess TVA’s Enterprise Risk
                                                                                         Management (ERM) program. Among
                                                                                         other things, we found—

                                                                                           e TVA has made significant prog-
                                                                                           ress surrounding enterprise risk iden-
                                                                                           tification and assessment since the
                                                                                           2003 OIG review. Approaches and
                                                                                           techniques used are consistent with
                                                                                           observed industry practices.

                                                                                           e The risk management tone set by
                                                                                           TVA’s senior executives is strong and
                                                                                           compares favorably to what is ob-
                                                                                           served within the industry.

                                                                                           e TVA’s ERM program is at a criti-
                                             in FY 2007 in overall customer satisfac-      cal juncture. The base infrastructure
‰ Contract compliance audits identi-                                                       with respect to risk identification
fied $3.4 million in questioned costs. In    tion. The top four challenges that affect
                                             the area of customer relations include:       and risk assessment, coupled with
addition, we provided: (1) assistance to
                                             (1) high cost of new generation, (2) un-      the strong “tone at the top,” puts TVA
OIG investigations on various contrac-
                                             certainty around fuel cost and delivery,      in a position to transform the ERM
tor investigations and (2) advice to TVA
                                             (3) managing an aging generation fleet        program to support strategic decision
Procurement regarding various planned
                                             with potential changes to regulatory re-      making. ■
contracts.
                                             quirements, and (4) inherent conflicts in
‰ In our first benchmark review of           TVA’s role as a regulator.
TVA’s performance in key areas, we
looked at TVA’s customer relations.          ‰ We reviewed certain Browns Ferry
Overall, TVA’s performance results in        Nuclear Plant (BFN) Unit 1 operating
the area of customer relations are excel-    issues that have occurred since the re-
lent. TVA has delivered electric service     start of Unit 1 in May 2007. We assessed
with 99.999 percent reliability. Also,       the causes of several shutdowns of the
TVA’s electricity rates are competitive      nuclear reactor since the unit returned
given that rates are: (1) 24 percent below   to service. We found nothing to indicate
the national average, (2) below the me-      that the operating issues resulted from
dian when compared with neighboring          work or project scope tied to FY 2005
utilities, and (3) at the median when        milestone and winning performance
compared to other utilities within one       achievements.
wheel of TVA. In addition, TVA slightly      ‰ At the request of the President and
outperformed its potential competitors       Chief Executive Officer, we conducted




0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 8 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Summary of Representative Investigations
                                               vealed that the former BVI Comptroller                                       proved the operator pumped partially
‰ We initiated a special investigative
project to determine if: (1) TVA’s policies,   diverted $577,647 from National Emer-                                        treated wastewater, a pollutant, into part
procedures, and practices for handling         gency Assistance, Inc., and BVI bank ac-                                     of TVA’s watershed management area.
lost or stolen computer equipment were         counts into her personal accounts. She
                                                                                                                            ‰ A Tennessee towing-company own-
adequate; (2) those policies, procedures,      pled guilty April 3, 2008 to one count of
                                                                                                                            er was indicted by a state grand jury on
and practices were followed; and (3) lost      a ten-count federal indictment charging
                                                                                                                            April 2, 2008 on two counts of Unlawful
or stolen computers contained sensi-           her with wire fraud, and was sentenced
                                                                                                                            Pollution and one count of Vandalism.
tive or restricted information. We found       September 25, 2008 to 46 months in fed-
                                                                                                                            The individual was responsible for a die-
TVA’s policies, practices, and procedures      eral prison plus three years’ supervised
                                                                                                                            sel truck’s fuel tank being drained of 80
for tracking its inventory of computer         release, and was ordered to make restitu-
                                                                                                                            to 90 gallons of diesel fuel along a bank
equipment were not adequate. TVA was           tion of $577,647.37.
                                                                                                                            which drained into TVA’s watershed area.
unable to track over 5,550 computers           ‰ A Tennessee municipal wastewater                                           The individual pled guilty September 23,
since August 2004 when the inventory           treatment plant operator was indicted                                        2008 to one count of Unlawful Pollution
system was implemented; and, policies          May 20, 2008 and pled guilty August                                          and was sentenced the same date to one
for handling stolen computers were not         19, 2008 to one count of violating the                                       year probation. A separate restitution
consistently followed. TVA management          Clean Water Act. The operator falsely                                        hearing will be held. ■
agreed with our recommendations and            reported that required testing had been
has begun corrective action. However,          conducted on discharge generated by the
management disagreed with the char-            local wastewater treatment plant, the dis-
acterization that they were unable to          charge then entering the TVA watershed.
track computer equipment. The OIG              The OIG investigation was conducted
will continue its efforts to verify that the   jointly with the Envi-
computers classified as “lost” or “write-      ronmental Protection
                                                                                            Statistical Highlights
off” were properly surplused and will          Agency (EPA) OIG and                     April 1, 2008 ~ September 30, 2008
conduct a separate review to verify TVA        EPA Criminal Investiga-       Audit Reports Issued . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 70
information is removed from surplused          tion Division (CID).          Questioned Costs. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . $3,608,927
computers before their disposition.                                                           Disallowed Costs . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1,802,190
                                               ‰ An operator with                             Funds Recovered . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . $676,212
‰ Final determination was reached              another Tennessee
                                                                                              Funds to be Put to Better Use. .  .  .  .  .  .  .  .  .  .  .  .  . $28,653,000
in an investigation initiated at the re-       wastewater treatment
                                                                                              Funds Realized by TVA. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . $28,120,000
quest of the Chief Executive Officer and       plant entered a pre-trial
                                                                                              Investigations Opened . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 161
Chief Financial Officer of Bicentennial        diversion settlement on                        Investigations Closed. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 135
Volunteers Incorporated (BVI), based           August 4, 2008 follow-                         Fines/Recoveries/Restitution/Savings . .  .  .  .  .  .  .  . $632,582
on discovery of financial irregularities       ing a joint investigation                      Criminal Actions. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17
during a review of direct deposit travel       by the OIG and EPA                             Administrative Actions (No. of Subjects) . .  .  .  .  .  .  .  .  .  .  .  . 15
reimbursements. The investigation re-          CID. The investigation                         Inspections Completed. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 16




                                                                                 0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                                 0 0 S E M I A N N U A L _ R E P O R T _ P G 9 0 1 0
                                                                                 1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
01101011100101010101110001011011001010101010101110001010100010100001101001
0001101010011OFFICE_OF_THE11011101000001010100010101011100000111010101011
011010111001010101011100INSPECTOR_GENERAL010101110001010100010100001101001
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
00011010100111010100010111011011101000001010100010101011100000111010101011
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
00001010101110000011101010101100011011101010100101010101010101101011001011




   0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
   0 0 S E M I A N N U A L _ R E P O R T _ P G 1 0 0 1 0
   1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Office of the Inspector General
Office Responsibilities OIG Responsibilities                                          OIG Authority
and Authority           ‰ Promote economy and efficiency                              ‰ Conduct any audit, inspection, or
Created by the TVA Board of Directors     while preventing and detecting fraud,       investigation the IG deems necessary or
in 1985, the TVA OIG became statu-        waste, and abuse                            desirable
tory under the Inspector General Act
                                          ‰ Conduct and supervise audits, in-         ‰ Access all TVA records or other ma-
Amendments of 1988 (IG Act). The          spections, and investigations relating to   terial
authority to appoint the TVA Inspec-      TVA programs and operations
tor General (IG) was transferred to the                                               ‰ Issue subpoenas and administer
President in November 2000 by Public      ‰ Keep the TVA Board and Congress           oaths
                                          fully and currently informed concern-
Law No. 106-422.                                                                      ‰ Receive complaints and grant confi-
                                          ing fraud and other serious problems,
                                                                                      dentiality
                                          abuses, and deficiencies relating to TVA
                                          programs and operations                     ‰ Have direct and prompt access to
                                                                                      the TVA Board
                                          ‰ Recommend corrective actions con-
                                          cerning problems, abuses, and deficien-     ‰ Hire employees and contract for ser-
                                          cies, and report on the progress made in    vices as necessary
                                          implementing such actions

                                          ‰ Assure work performed by nonfed-
                                          eral auditors complies with Government
                                          Auditing Standards

                                          ‰ Issue semiannual reports to TVA
                                          Board and the Congress




                                                                0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                0 0 S E M I A N N U A L _ R E P O R T _ P G 1 1 0 1 0
                                                                1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
OIG Strategic Plan
Mission                                      Goals & Objectives
Promote excellence in TVA’s operations       Performance
through the conduct of investigations,       Perform timely reviews that address stakeholder concerns and areas of highest risk
audits, inspections, and advisory
                                             ‰ Focus efforts on areas of highest impact and risk
services designed to promote economy,
efficiency, and effectiveness and prevent    ‰ Ensure processes are efficient and effective
and detect fraud, waste, and abuse.          ‰ Stay abreast of emerging issues and industry trends
Vision                                       ‰ Stay abreast of stakeholder concerns
To be a highly effective organization that   ‰ Produce work that is timely, relevant, and of high quality
promotes positive change by identifying
                                             Workforce
opportunities for improvements in the
                                             Cultivate and retain a highly skilled, productive, and fully engaged workforce
performance and efficiency of TVA’s pro-
grams and operations.                        ‰ Hire and retain a well qualified workforce
Core Values
                                             ‰ Maintain competitive pay and award programs that allow for rewarding team
                                             and individual contributors
‰ Independence
                                             ‰ Develop leadership, team and technical skills of each employee
‰ Integrity
                                             ‰ Ensure accountability in individual performance
‰ Innovation
                                             ‰ Promote effective communications within OIG
‰ Quality
                                             Stakeholder
‰ Initiative                                 Communicate effectively with stakeholders and deliver services that meet their needs
‰ Results                                    ‰ Improve stakeholder awareness of OIG
‰ Leadership                                 ‰ Ensure stakeholders are kept informed
‰ Teamwork                                   ‰ Ensure stakeholders have an opportunity to provide input in the annual audit
‰ Communication                              planning process and each individual review, as appropriate

‰ Respect for Individual




0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 1 2 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
                                               Office of Inspector General—Tennessee Valley Authority

                                                                                                  Richard W. Moore
                                                                                                  Inspector General
Organization
The OIG’s primary location is adjacent
to the TVA headquarters in Knoxville,
Tennessee. To obtain broader cover-
age throughout the Valley, the OIG also
has Investigations offices in Mayfield,               Ben R. Wagner                                 Stefanie D. Hoglund
                                               Deputy Inspector General                             Communications SpecIalist
Kentucky; in Chattanooga, Tennessee;
in Nashville, Tennessee; at Watts Barr
        Nuclear Plant, Tennessee; and
              in Huntsville, Alabama, as                                             Jill M. Matthews
                well as an Inspections unit                                          Director
                                                                                     Information Technology Support
                located in Chattanooga.
                The OIG consists of three
               primary components:
         (1) Administration, (2) Audits                                    Audits & Inspections
and Inspections, and (3) Investigations.               Robert E. Martin                             David P. Wheeler
                                                  Assistant Inspector General                       Director
In June 2008, we opened two new satel-                 Audits and Inspections                       Contract Audits
lite offices in Nashville, Tennessee and in
Huntsville, Alabama. Since becoming
TVA’s IG, Richard Moore has worked                  Gregory C. Jaynes                               John H. Barrow
                                                  Deputy Assistant Inspector                        Director (Acting)
to place OIG special agents in the field                             General                        Financial and Operational
in order to foster a closer working rela-                       Inspections                         Audits
tionship with TVA business units. As
TVA’s economic development programs                      Louise B. Beck                             Phyllis R. Bryan
                                                       Audit Quality Manager                        Director (Acting)
and Customer Service organization are                                                               Information Technology Audits
based in Nashville, it made sense to as-
sign agents there. In addition, the agents
based in Nashville will be able to more                      Administration & Government Relations
effectively serve TVA plants in middle
                                                            Ronald Wise                             Kay T. Myers
and west Tennessee and assist with cases         Legal Counsel (Acting), and                        Manager
in Kentucky, as necessary.                       Assistant Inspector General                        Human Resources
                                              Administration and Government
In order to staff the OIG office in Nash-                          Relations
ville, we hired two experienced FBI special
agents with more than 20 years of com-                                          Investigations
bined experience in major fraud investi-
gations, health care fraud, and public cor-
ruption. We are planning to add a third
agent to this office in the near future. ■
                                                   John E. (Jack)0 1 1 0 0Nancy
                                                                           1 1 1 J.
                                                                                 0 Holloway
                                                                                    0 1 0 1 1 0 1 0 0Paul
                                                                                                      0 1 B.0 Houston
                                                                                                              1 1 0 1 1 0
                                                     Brennan 0 0 S E MSpecial
                                                                           I A N N U A L _ R E P O R T _ P G In
                                                                                Agent In Charge    Special Agent 1 Charge
                                                                                                                   3 0 1 0
                                               Assistant Inspector General
                                                                     1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
                                                      Investigations
Administration                                 impact and risk of fraud, waste, abuse, or    pendent OIG computer network.
                                               in regard to IT, malicious, or other intru-   The Inspections group, based in Chat-
The administrative section works closely
with the IG, Deputy IG, and managers           sion.                                         tanooga, seeks to ensure that program
to address the day-to-day operations           The Audits group, based in Knoxville,         objectives and operational functions are
of the OIG and to develop policies and         conducts and/or supervises comprehen-         achieved effectively and efficiently. It
procedures. Responsibilities include           sive financial and performance audits of      performs both comprehensive reviews
operations for personnel administration,       TVA programs and operations.                  and more limited scope policy and
budget and financial management, pur-                                                        program reviews. In accordance with
                                               It consists of three departments—
chasing and contract services, facilities,                                                   the Quality Standards for Inspections,
                                               Contract Audits, Financial/Operational
communications, conferences, and gov-                                                        the objectives of the Inspections group
                                               Audits, and IT Audits.
ernment relations. ■                                                                         include providing a source of factual
                                               ‰ Contract Audits has lead respon-            and analytical information, monitoring
Audits and Inspections                         sibility for contract compliance and          compliance, measuring performance, as-
The Audits and Inspections group per-          preaward audits. In addition, this group      sessing the efficiency and effectiveness of
forms a wide variety of engagements            performs reviews of TVA contracting           operations, and/or conducting inquiries
designed to promote positive change and        processes and provides claims assistance      into allegations of fraud, waste, abuse,
provide assurance to TVA stakeholders.         and litigation support.                       and mismanagement.
Based upon the results of the engage-
ments, the Audits and Inspections group
                                               ‰ Financial/Operational Audits has            Audit and inspection findings vary de-
                                               lead responsibility for: (1) oversight of     pending on the objectives of the project.
makes recommendations to enhance
                                               TVA’s financial statement audit and re-       Issues can be generalized into specific
the effectiveness and efficiency of TVA’s
                                               lated services performed by TVA’s exter-      categories depending on the type of
programs and operations. The group
                                               nal auditor; (2) reviews of TVA’s internal    engagement performed. The following
uses an impact- and risk-based approach
                                               controls related to financial reporting,      graphic (right) shows some representa-
to develop an annual work plan. The            operational efficiency, and compliance        tive examples of issues commonly re-
group’s plan considers TVA’s strategic         with laws and regulations; and (3) op-        ported. ■
plans, major management challenges,            erational reviews to assess the results
TVA’s enterprise risk management pro-          and economy and efficiency of TVA
cess, and other input from TVA manage-         programs.
ment. The planning model also evalu-
ates each potential engagement from the        ‰ IT Audits has lead responsibility for
                                               audits relating to the security of TVA’s
standpoint of materiality (i.e., costs or
                                               IT infrastructure, application controls,
value of assets), potential impact, sensi-
                                               and general controls associated with
tivity (including public and/or congres-
                                               TVA systems. This group also performs
sional interest), and likelihood it will re-
                                               operational reviews of the effectiveness
sult in recommendations for cost savings
                                               of IT-related functions. In addition to
or process improvements. The result of
                                               its audit mission, IT Audits is responsible
the OIG audit and inspections planning
                                               for developing and supporting an inde-
process is a focus on the issues of highest



0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 1 4 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
                                                         Investigations
     Types of Audit and
                                                         Investigations conducts and coordinates

     Inspection Issues
                                                         investigative activity related to fraud,
                                                         waste, and abuse in TVA programs and
                                                         operations. The activities investigated
                                                         include possible wrongdoing by contrac-
 CONTRACT       FINANCIAL      INFORMATION               tors, employees, economic development
  AUDITS          AUDITS        TECHNOLOGY               loan recipients, and others who com-
                                  AUDITS                 mit crimes against TVA. Investigations
                                                         maintains liaison with federal and state
                                                         prosecutors and reports to the Depart-
                                                         ment of Justice whenever the OIG has
                                                         reason to believe there has been a viola-
  Inflated        Internal     Unauthorized              tion of federal criminal law. Investiga-
  Proposals        Control         Access
                Deficiencies                             tions works with other investigative
  Contract                      Inadequate
Overpayments      Material        Controls               agencies and organizations on special
               Misstatements
  Inferior                     Lack of Data              projects and assignments, including in-
 Performance        Legal        Integrity
               Noncompliance                             teragency law enforcement task forces on
    Fraud                          Fraud
                    Fraud                                terrorism, the environment, and health
                                                         care. ■


       OPERATIONAL
          AUDITS       INSPECTIONS




         Operational      Internal
        Inefficiency       Control
                       Deficiencies
       Not Achieving
          Intended      Operational
           Results     Inefficiency
          Inferior         Policy
        Performance    Noncompliance
            Legal/          Fraud
         Regulatory
       Noncompliance
             Fraud




                                       0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                       0 0 S E M I A N N U A L _ R E P O R T _ P G 1 5 0 1 0
                                       1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
                            100011
                                   010100
                            011001        111101
                                   010101        000101
                            011101        010101         110110
                                   000001        110001         11101
                            10SECU        010100         010100
                                   RING/I        0 101010       01011
                            011001        .T.110          111000
                                   010101        010001           0010
                            011101        010101         011011
                                   000001        110001         0 0101
                            10OFFI        010100         010100
                                   CE/OF/        0 1 010101     0 1 010
                            100011        THE/IN            110000
                                   010100        S PECTOR           010
                            01TENN        111101          /GENER
                                   ESSEE/        000101           A L01
                            011101        VALLEY         110110
                                   000001        /AUTHO         11100
                            10SEMI        010100         RITY00
                                   ANNUAL        010101         11011
                            010110        /REPOR         011100
                                   001100        T 011000       00010
                            01APRI        010011          101101
                                   L/01/2        110100           1001
                            000101        008–SE         010111
                                   101100        PTEMBE         01100
                            110110        101010         R/30/2
                                   111010        1 0 101011     0 0800
                            110110        000010            100010
                                   111010        1 010001           101
                                          000010          010101
                                                 101000           110O
                                                         101010
                                                                11101




0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 1 6 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
                                                Securing
0110101110010101010111000101101SPECIAL_REPORT:1110001010100010100001101001
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011000100111101000101110110111010100010101




                                                Information
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
00011010100111010100010111011011101000001010100010101011100000111010101011



                                                Technology
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
00001010101110000011101010101100011011101010100101010101010101101011001011
     New vulnerabilities, new technology,       Every year, the OIG’s IT auditors per-       addition, during this year, Investigations
       new ways to steal personal data….        form more than 30 reviews in the IT          performed a focused review on the pro-
          how do we best secure our IT re-      area; additionally, these auditors spend     cess of handling lost computers. These
       sources and data when the playing        many hours, including some of their          reviews have resulted in recommenda-
     field changes every day? This ques-        own time, in training and research, to       tions to improve processes, security and
                                                stay current on the latest risks                    disciplinary action for personnel
       tion is a constant struggle for Chief
                                                to ensure their audits are                                involved, thereby, creating a
      Executive Officers, Board members,
                                                the most effective pos-                                       deterrent effect and dis-
        Chief Information Officers, and the                                   OPERATIONAL      SECURITY
                                                sible. In FY 2008,                                              couraging future misuse.
        Congress. At TVA, Information Ser-                                          46             51
                                                IT Audits made 51
    vices (IS), IT Security, and operational                                                                     In this ever-changing
                                                recommendations
    organizations are working to improve                                                                          environment, the OIG
                                                to management for
                                                                                                                  remains committed to
          security on a daily basis, but they   improvements in IT                INTERNAL CONTROL               doing its part to pro-
         are not alone. Auditors and inves-     security and 154 rec-                    108                    vide TVA management
       tigators also play an integral role in   ommendations related
                                                                                                              with the information and
       providing information and expertise      to improvements in other
                                                                                                           recommendations needed
   necessary to help TVA properly secure        IT programs and internal               FY2008            to further secure TVA’s IT re-
           its IT resources and information.    control reviews.                Recommendations
                                                                                                         sources and information. ■
      OIG auditors provide TVA manage-          OIG Investigations performs reviews of
   ment and stakeholders with an inde-          potential security threats or misuse of
   pendent look at: (1) how well policies       computer resources reported by TVA
     and procedures are being followed;         management, employees, or through
                                                the OIG’s hotline, Empowerline. In the
       (2) the effectiveness of IT-related
                                                past year, these investigations looked into
       programs and processes; (3) how
                                                unauthorized scans of the TVA network,
      well internal controls are function-
                                                misuse of TVA computer resources by
    ing; and (4) vulnerabilities and risks
                                                TVA employees or contractors, and loss
              that need to be addressed.        of personally identifiable information. In



                                                                     0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                     0 0 S E M I A N N U A L _ R E P O R T _ P G 1 7 0 1 0
                                                                     1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
TVA Office of Inspector
General Receives Two
Awards of Excellence
The TVA OIG’s work on reviewing the
effectiveness of TVA’s IS organization and
IT Security function and on an investiga-                         Award Winning Team - IT Organizational Effectiveness Audits
tive case that resulted in a $25 million
recovery has been recognized by the Pres-
ident’s Council on Integrity & Efficiency
                                             Effectiveness of IS                          ‰ While IT Security has made strides in
(PCIE) for two Awards of Excellence.         Organization and IT                          establishing the technology infrastructure,

Through its annual awards program, the
                                             Security Function                            the TVA OIG found: (1) IT Security
                                                                                          lacks a business-level mechanism to pro-
                                             The IS and IT Organizational Effective-
PCIE recognizes outstanding                                                               vide cross-agency oversight, a strategic
                                             ness team was made up of a third party
performance and com-                                                                      TVA-wide approach, and grounding in
                                               consultant as well as OIG auditors who
mitment to the work                                                                       risk management; (2) coordination and
                                                 interviewed numerous TVA manag-
of the IG community.                                                                      communication with business units were
                                                 ers and employees in reviewing both
Recipients of the                                                                         not well defined and could be more effec-
                                                 of these areas. In these reviews, the
PCIE Award of Excel-                                                                      tive with increased training, communica-
                                                team found:
lence are recognized for                                                                  tion, and business unit involvement in
achievements that are “so                    ‰ The recent restructuring of the IS         security planning; (3) procedures were
unusual or distinguished as to be at the     operations area mirrors leading prac-        outdated and did not address issues for all
forefront of the community.”                 tices. In addition, IS’ methodologies        business segments; and (4) performance
                                             and tools for conducting IT projects are     management was substantially undefined.
This year’s award is being presented in
                                             above those of its peers. However, the
Washington, D.C. at Andrew W.                                                             The team briefed all levels of manage-
                                             TVA OIG review showed some areas
Mellon Auditorium. ■                                                                      ment on its findings and provided addi-
                                             need improvement, such as: TVA needs
                                                                                          tional information such as the standing
                                             to: (1) better integrate IS governance
                                                                                          of TVA’s current state against leading
                                             with TVA business strategy; (2) improve
                                                                                          practices in key areas. TVA management
                                             focus on strategic business partnering
                                                                                          generally agreed with the OIG’s findings
                                             and communication with customers;
                                                                                          and is in the process of implementing
                                             (3) target organization and policy chang-
                                                                                          corrective actions. TVA incorporated the
                                             es, performance measures, and service
                                                                                          findings and recommendations as they
                                             management toward aiding customers
                                                                                          restructured both the IS organization
                                             to achieve business goals; (4) consolidate
                                                                                          and the IT security function. ■
                                             procedures to increase usability; and
                                             (5) develop a strategy for handling the
                                             risk of the aging workforce and for en-
                                             suring knowledge transfer.




0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 1 8 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Kinder Morgan Civil Settlement
An investigations and audit team, work-     and it had the right to sell the coal and
ing jointly, investigated whether TVA       keep the profit.
was defrauded by three Kinder Mor-
                                            The settlement included triple
gan limited partnerships (collectively
                                            damages on the TVA losses plus
“Kinder Morgan”) that provided coal
                                            the actual losses of seven private
and other energy transportation and
                                            corporations.  TVA received nearly
distribution services at two coal termi-
                                            $8 million of the settlement amount,
nals -- Cora Terminal in Rockwood,
                                            including actual losses and the cost
Illinois, and the Grand Rivers Terminal
                                            of its investigation. ■
(GRT) in Grand Rivers, Kentucky.




                                      Award Winning Team – Kinder Morgan Case




A tip and the resulting investigation
led to the United States reaching a civil
settlement in excess of $25 million
with Kinder Morgan.

In this case, TVA and other customers’
coal was shipped by rail to Cora and/
or GRT, where it was offloaded, stored,
and eventually loaded onto barges for
delivery. Kinder Morgan used two
different weighing methods to show it
was shipping out the same amount of
coal as it had received. It claimed the
“excess” coal, therefore, belonged to it,



                                                                 0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                 0 0 S E M I A N N U A L _ R E P O R T _ P G 1 9 0 1 0
                                                                 1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
01101011100101010101110001011011001010101010101110001010100010100001101001
00001010101110summary_of10101100011000100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
0001101010011101010001REPRESENTATIVE_AUDITS0100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
00011010100111010100010111011011101000001010100010101011100000111010101011
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
00001010101110000011101010101100011011101010100101010101010101101011001011




   0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
   0 0 S E M I A N N U A L _ R E P O R T _ P G 2 0 0 1 0
   1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Summary of Representative Audits
During this reporting period, we complet-    IT SOX Testing Identifies                    tractor systems, (2) complete system cer-
ed 70 audits, reviews, and agreed-upon       Opportunities for                            tifications and accreditations, (3) define
procedures which identified more than        Improvement                                  and track configuration management
$3.6 million in questioned costs and ap-     During this semiannual, we completed         metrics, and (4) consider e-authentica-
proximately $28.7 million in funds which     compliance testing of controls for 14 ap-    tion risks at TVA.  
could be put to better use. We also iden-    plications and seven IT general control
tified several opportunities for TVA to                                                   Other Audits
                                             areas. Overall, we noted opportunities to
strengthen its system of controls. These                                                  We performed two other audits pertain-
                                             improve SOX documentation, operating
projects included IT audits, financial-                                                   ing to: (1) TVA’s actions to protect social
                                             effectiveness of controls, and areas where
related engagements, and pre- and post                                                    security numbers (SSNs) and eliminate
                                             control gaps existed. TVA management
award contract reviews. We also com-                                                      their unnecessary use; and (2) security
                                             has taken or is in the process of taking
pleted seven other audit-related projects.                                                controls for one TVA facility. In these
                                             action to remediate issues noted in these
                                                                                          reviews, we noted—
                                             reviews.
IT Audits                                                                                 ‰ While TVA has taken several actions
“The IT Audits group works diligently to     Areas of Improvement Noted                   to better protect SSNs, we found op-
provide information to TVA to strengthen     in Federal Information                       portunities to further protect or reduce
security and availability of its data and    Security Management Act                      the usage of SSNs that will lower the risk
information technology re-                                 FISMA was meant to             of exposure. TVA’s IS has several initia-
sources and to assess compli-                              bolster computer and net-      tives under way to improve protection
ance with relevant standards.”                             work security within the       of SSNs. TVA management agreed with
              Phyllis R. Bryan                             federal government.  As a      our recommendations and has initiated
             Director (Acting)                             part of FISMA, the OIG         corrective actions.
Information Technology Audits
                                                           performs an annual review
                                                           of TVA information secu-       ‰ We determined TVA has not:
                                                                                          (1) implemented adequate measures
During the semiannual peri-                                rity program.  Our review
                                                                                          to segment the facility’s control system
od, we completed three audits                              determined that process
                                                                                          from the TVA network, (2) imple-
in the IT environment and performed          improvements TVA made during FY
                                                                                          mented adequate logical and physical
20 reviews in support of TVA’s efforts to    2008 included: (1) improved tracking of
                                                                                          security for the control and business
comply with certain provisions of SOX.       security weaknesses, remediation actions,
                                                                                          networks, and (3) has not sufficiently
Highlights of these audits follow.           and incidents; and (2) measures to ensure
                                                                                          created or implemented network/sys-
                                             appropriate personnel complete role-
                                                                                          tem security policies or procedures re-
                                             based security training.  While TVA con-
                                                                                          lated to control system networks. TVA
                                             tinues to make progress in implementing
                                                                                          management agreed with the audit
                                             IT controls required by FISMA, we noted
                                                                                          recommendations. ■
                                             additional controls are needed to: (1)
                                             improve oversight and evaluation of con-



                                                                  0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                  0 0 S E M I A N N U A L _ R E P O R T _ P G 2 1 0 1 0
                                                                  1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Financial and                               generally accepted government auditing      for utility pricing programs, for the year

Operational Audits                          standards. We reviewed documentation
                                            supporting E&Y’s review of TVA’s FY
                                                                                        ended December 31, 2007. These pro-
                                                                                        cedures included steps to verify that the
“Our work largely involves TVA’s manual
                                            2008, 2nd quarter, financial information,   renewable energy supply was sufficient
internal controls that interface with
                                                        and performed such other        to meet sales, products met the Green-e
computer systems, and we
                                                        procedures as we deemed         criteria and stated product content, and
coordinate closely with In-
                                                        necessary in the circum-        marketing and product information
formation Technology Au-
                                                        stances, to provide reason-     was accurate and communicated to
dits to ensure seamless audit
                                                        able assurance the work was     customers.
coverage.”
                                                        performed in accordance
                                                                                        The results of the procedures verified
          John H. Barrow III                            with Government Audit-
            Director (Acting)                                                           that TVA’s Green Power sales were based
     Financial & Operational                            ing Standards. Our review
                                                                                        on electricity generated or acquired from
                       Audits                           disclosed no instance where
                                                                                        eligible renewable sources and otherwise
                                            E&Y did not comply, in all material
During this semiannual period, we                                                       met the above aspects. CRS was pro-
                                            respects, with generally accepted govern-
completed 36 attestation engagements,                                                   vided with the results of our work.
                                            ment auditing standards.
including testing of financial reporting
                                                                                        SOX Testing Identifies
controls for 35 various business pro-       TVA’s 2007 Green                            Improvement Areas
cesses to assist with TVA’s initiative to   Power Sales Tested                          In support of TVA initiatives to comply
comply with SOX. Highlights of these        TVA’s Green Power Switch Pro-
                                                                                        with SOX, we completed testing of fi-
projects follow.                            gram produces electric power
                                                                                        nancial reporting controls in 35 of about
                                            from renewable resources such
External Auditor’s Review                   as solar, wind, and methane
                                                                                        68 key business processes determined
of TVA Quarterly Financial                  gas, and adds such sources to
                                                                                        to be in scope for SOX compliance. In
Information Complied with                   TVA’s power mix.  Both solar
                                                                                        addition, we re-tested selected controls
Standards                                   and wind power are produced
                                                                                        in 14 processes during the 4th fiscal
TVA contracted with the certified public                                                quarter. These projects were designed to
                                            in sufficient quantities to
accounting firm of E&Y to audit TVA’s                                                   provide the Vice President and Control-
                                            qualify for accreditation stan-
balance sheet as of September 30, 2008,                                                 ler with information for TVA to assess its
                                            dards administered by the
and the related statements of income                                                    internal control over financial reporting
                                            Center for Resource Solu-
and cash flows for the year then ended.                                                 as of September 30, 2008. Our findings
                                            tions (CRS).  We completed
In addition, the contract called for the                                                included: (1) needed improvements in
                                            agreed-upon procedures to
review of TVA’s quarterly financial                                                     control design, (2) control activities not
                                            assist the CRS in determin-
information associated with the fil-                                                    operating as intended, (3) inadequate
                                            ing TVA’s compliance with
ing of TVA’s quarterly reports on Form                                                  documentation retained to demonstrate
                                            the annual reporting re-
10-Q with the Securities and Exchange                                                   the control operated in the period tested,
                                            quirements of CRS’ Green
Commission (SEC). The contract re-                                                      (4) gaps in the control network, and (5)
                                            Pricing Accreditation
quires that audit and related work be                                                   other documentation-related improve-
                                            Program, Green-e Energy
performed by E&Y in accordance with                                                     ments. ■



0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 2 2 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Contract Audits                                          401(k) cost recovery rates.        costs, and (2) performed certain services
                                                         TVA management is using the        and fixed-price tasks not provided for by
“Since Contract Audits deals
                                                         results of our findings to ne-     the contracts. TVA management agreed
with highly sensitive and
                                                         gotiate better contract terms.     with our findings and plans to recover
proprietary information, it
                                                                                            the overbilled costs and only allow ser-
is extremely important that
                                                          ontract Compliance
                                                         C                                  vices and billings that are provided for by
our data is secure.”
                                                         Reviews                            the contract.
           David P. Wheeler                               During this semiannual pe-
    Director, Contract Audits                             riod, we completed seven          ‰ We reviewed $14.2 million of costs
                                                                                            billed to TVA by a contractor for provid-
Preaward Contract Reviews                     contract compliance reviews that identi-
                                                                                            ing right-of-way clearing and restoration
Identify $28.8 Million                        fied $3.4 million of the total $3.6 million
                                                                                            services and found TVA had been over-
of Potential Savings                          in questioned costs identified in this
                                                                                            billed $75,757 due to: (1) unallowable
Opportunities                                 semiannual period (see Appendix 2). In
                                                                                            miscellaneous material costs, (2) du-
To support TVA management in negoti-          addition, we provided: (1) assistance to
                                                                                            plicate billings for initial clearing costs,
ating procurement actions, we complet-        OIG investigations on various contrac-
                                                                                            and (3) unsupported labor costs. Ad-
ed four preaward reviews of cost propos-      tor investigations, and (2) advice to TVA
                                                                                            ditionally, we found that prior to award
als submitted by companies proposing          Procurement regarding various planned
                                                                                            of the contract, Procurement’s contract
to provide engineering and construction       contracts. Highlights of our completed
                                                                                            manager had requested the contractor to
services. Our reviews identified a total of   compliance reviews follow—
                                                                                            change its proposed billing rates to “TVA
$28.8 million in potential savings oppor-
                                              ‰ We reviewed $16.5 million of                Valley-Wide” rates. That action, which
tunities for TVA to negotiate. Some of        costs billed to TVA by a contractor for       the contractor agreed to do, caused TVA’s
our more significant findings included:       providing cleaning and removal ser-           costs to increase by $522,212, because
(1) billing rates that were inflated be-      vices using high-powered vacuum and           most of the rates that had been proposed
cause they were not cost-based, (2) labor     hydro-blasting services at various TVA        by the contractor were lower than TVA’s
rates that were based on average salaries     locations. We found the contractor            valley-wide rates. _
instead of actual salaries, (3) labor rates   had: (1) overbilled TVA an estimated
that did not accurately reflect the com-      $115,617 in unsupported and ineligible
pany’s historical costs, and (4) overstated




                                                                     0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                     0 0 S E M I A N N U A L _ R E P O R T _ P G 2 3 0 1 0
                                                                     1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
TVA management subsequently de-               TVA management agreed the contrac-          scope of our review included $492.4
cided to recover all of the questioned        tor’s billings for craft augmentation       million of craft labor costs billed by
costs except for about $31,000 related        labor were overstated by $153,652 due       the contractor through October 29,
to the duplicate billings which man-          to inflated payroll tax costs and calcu-    2006, which had not previously been
agement decided was allowable. Also,          lation errors, but did not agree the re-    audited, including: (1) $214 million
management informed us the “TVA               maining $465,348 was recoverable be-        for modification and supplemental
Valley-Wide” rates had been negoti-           cause the contract’s billing rates were     maintenance services and (2) $278.4
ated based on a strategy to negotiate         not cost reimbursable and the rates         million for the BFN Unit 1 services.
consistent pricing among all suppliers        had been established through competi-       In summary, we found TVA had been
that would be more favorable to TVA.          tive negotiation. Management also           overbilled $1,986,254 because the
Although some of the prices were              agreed the contractor had billed TVA        contractor had: (1) used a labor classi-
higher than the contractors initial           $25,658 for services not performed.         fication not provided for by TVA’s con-
offer, lower prices were achieved on          Management plans to recover $179,310        tract, (2) miscalculated its payroll tax
four items where TVA had expected             plus applicable interest and determine      costs, (3) overpaid certain craft em-
the majority of the expenditures to           if alternative contracting strategies for   ployees as a result of duplicate hours
take place. However, since the ac-            obtaining craft augmentation services       and ineligible double-time labor costs,
tual quantities of work performed             could provide a better value to TVA.        and (4) misclassified some employees
under the various line items were                                                         when it paid them. TVA management
                                              ‰ We performed an interim review
other than anticipated, the resulting                                                     is reviewing the audit findings in detail
                                              of costs billed to TVA by a contractor
charges increased TVA’s total cost by                                                     to determine what amounts should be
                                              for providing: (1) modification and
approximately 3.7 percent. Procure-                                                       recovered from the contractor.
                                              supplemental maintenance services
ment plans to use this experience in
                                              at TVA nuclear plants (operating unit       ‰ We reviewed $19 million of costs
lessons-learned sessions.
                                              work), and (2) construction services        billed to TVA for subcontract services
‰ We reviewed $22.1 million of costs          for the restart of BFN Unit 1. The          on the BFN Unit 1 recovery project
TVA paid to a contractor for construc-
tion and modification services at TVA
facilities and found—

(1)	An estimated $20.8 million that had
     been billed for craft augmentation
     labor using hourly billing rates was
     inflated by approximately $619,000,
     because the contractor’s billing rates
     included: (a) overstated payroll tax
     costs, and (b) calculation errors.

(2)	The contractor billed TVA $25,658
    for subcontract services it had not                                                       Cumberland TVA Fossil Fuel Plant
    incurred.




0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 2 4 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
and determined the costs billed by the     not have a process in place to verify
subcontractor for providing profes-        the amount of ammonia that was de-
sional and technical support personnel     livered and subsequently billed to its
were fairly stated and in accordance       plants. TVA management is reviewing
with the terms of the subcontract.         our findings to determine what actions
                                           to take. ■
‰ We reviewed $7.9 million of costs
billed to TVA by a contractor for sup-
plying ammonia and providing engi-
neering and technical services for am-
monia facilities to various TVA fossil
plants. We found: (1) the prices billed
for $2.8 million of the ammonia deliv-
ered to five TVA fossil plants could not
be verified because prices for the am-
monia were not included in the con-
tract, (2) TVA was overbilled $106,054
for ammonia shipments to a fossil
plant because an incorrect markup
had been used, and (3) TVA was billed
$4,375 for ineligible surcharges that
were not provided for by the contracts.
Additionally, we found that TVA did




                                                              0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                              0 0 S E M I A N N U A L _ R E P O R T _ P G 2 5 0 1 0
                                                              1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
00001010101110000011101010101100011000100111101000101110110111010100010101
00011010100SUMMARY_OF10111011011101000001010100010101011100000111010101011
000010101011100000111REPRESENTATIVE10100111101000101110110111010100010101
00001010101110000INSPECTIONS1100011011101010100101010101010101101011001011
00011010100111010100010111011011101000001010100010101011100000111010101011
          0000101010111000001110101010110001101010011110100010111011011101010001010
100011010100111010100010111011011101000001010100010101011100000111010101011
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101




    0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
    0 0 S E M I A N N U A L _ R E P O R T _ P G 2 6 0 1 0
    1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Summary of Representative Inspections
“In the conduct of key operational re-                 mark information, and (3) identified key
                                                                                                            Browns Ferry Nuclear
views, inspection auditors not only use
TVA Business Sensitive data
                                                       management challenges that could affect
                                                                 how successful TVA will be
                                                                                                            Plant Unit 1 Operating
but assess the risk of expo-                                     in achieving these strategic
                                                                                                            Issues Since the
sure of this data protected by                                   objectives.                                Restart in May 2007
TVA’s IT infrastructure.”                                                                                   We evaluated certain BFN Unit 1 operat-
                                                                    According to the 2007 TVA
                                                                                                            ing issues that have occurred since the
              Gregory C. Jaynes                                     Strategic Plan, TVA’s stra-
                   Deputy Assistant                                                                         restart in May 2007. Our objectives were
                                                                    tegic objective for its power
                  Inspector General                                                                         to: (1) assess the root causes of the BFN
                        Inspections                                 distributor and directly
                                                                                                            Unit 1 SCRAMs1 that have occurred
                                                                    served industrial custom-
                                                                                                            since the unit returned to service in May
                                                       ers is to “maintain power reliability,
                                                                                                            2007, taking into consideration milestone
Review of TVA’s                                        provide competitive rates, and build
                                                                                                            achievements, and (2) obtain information
Customer Relations                                     trust with TVA’s customers.” Overall,
                                                                                                            on the cost to complete the BFN Unit 1
Performance                                            TVA’s performance results in the area
                                                                                                            restart project. In summary, we found—
This evaluation was the first in a series              of customer relations are excellent.
to benchmark TVA’s performance in                      TVA has delivered electric service with              ‰ The first SCRAM was caused by a
                                                       99.999 percent reliability. Also, TVA’s              flared fitting not correctly installed dur-
key areas, including the following four
                                                       electricity rates are competitive, given             ing original construction and inadequate
strategic areas: financial health, op-
                                                       that rates are: (1) 24 percent below the             application of the work control process
erational performance, environmental
                                                       national average, (2) below the median               in repairing the leak.
stewardship, and customer relations. The
purpose of these projects is to give an ob-            when compared with neighboring                       ‰ The second SCRAM was caused by
jective evaluation of TVA’s performance                utilities, and (3) at the median when                original design issues.
and present, as appropriate, the signifi-              compared to other utilities within
                                                       one wheel of TVA. In addition, TVA
                                                                                                            ‰ The third SCRAM was caused by
cant management challenges facing TVA.                                                                      improper installation and inadequate
This particular report answers the basic               slightly outperformed its potential
                                                                                                            assembly verification of a fitting during
question, “How is TVA doing in regard to               competitors in FY 2007 in overall cus-
                                                                                                            restart construction.
Customer Relations?” We reviewed TVA’s                 tomer satisfaction. The top four chal-
strategic goals and objectives, focusing               lenges that affect the area of customer              ‰ The fourth SCRAM was caused by
our evaluation on the three primary driv-              relations include: (1) high cost of new              a missing wood support that allowed
ers: reliability, rates, and customer sat-             generation, (2) uncertainty around                   tubing to rub on a metal hanger. The
isfaction. In conducting this review, we:              fuel cost and delivery, (3) managing an              rubbing wore a hole into the tube. In
(1) assessed key performance measures                  aging generation fleet with potential                addition, inadequate preventive mainte-
and their alignment with the key strategic             changes to regulatory requirements,                  nance instructions were used to inspect
objectives, (2) evaluated TVA’s results                and (4) inherent conflicts in TVA’s role             the system as part of the system return-
relative to targets and available bench-               as a regulator. ■                                    to-service process. _

1
    SCRAM (Safety Control Rod Axe Man) - The Nuclear Regulatory Commission defines SCRAM as the sudden shutdown of a nuclear reactor, usually by rapid inser-
     tion of control rods, whether automatically or manually, by the reactor operator.


                                                                                 0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                                 0 0 S E M I A N N U A L _ R E P O R T _ P G 2 7 0 1 0
                                                                                 1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
                                                                                                 ‰ Increases the hours spent to prepare
                                                                                                 project invoices.

                                                                                                 ‰ Results in numerous adjustments
                                                                                                 which, according to TVA management,
                                                                                                 have resulted in more than $1 million in
                                                                                                 adjustments.

                                                                                                 Based on the issues identified, we rec-
                                                                                                 ommended the Vice President, WBN
                                                                                                 Unit 2, in conjunction with the contrac-
                                                           Browns Ferry Nuclear Plant            tor project director: (1) assess the feasi-
                                                                                                 bility of amending the billing terms to al-
                                                                                                 low the utilization of contractor standard
‰ The fifth SCRAM was caused by: (1)            Contractor’s                                     systems; (2) consider alternative billing
design issues and (2) failure to identify the   Accounting for                                   systems; or (3) require improvements to
root cause and perform corrective actions
                                                the Watts Bar                                    the current billing system and process to
from an earlier SCRAM in a timely manner.
                                                Nuclear Plant Unit 2                             address identified systemic adjustments,
In addition, TVA Nuclear personnel              Construction Project                             lack of key control activities, and other
found numerous contributing factors             Based on issues identified through inter-        reconciliation/ documentation issues.
to the SCRAMs. Some of the contrib-             views and continuous monitoring activi-          We also recommended that all aspects
uting factors included: (1) inadequate          ties, we initiated an inspection of a contrac-   of the billing process and key control ac-
communication, (2) lack of knowledge            tor’s cost accounting activities applicable to   tivities be documented and tested. TVA
and procedural guidance, (3) lack of            the Watts Bar Nuclear Plant (WBN) Unit 2         management and the contractor agreed
rigorous worker practices, and (4) inad-        project, including time reporting and bill-      with our recommendations and plans to
equate management oversight. Based on           ing procedures. The objective of the review      take corrective actions. ■
our interviews and analysis, we found           was to assess the processes and key control
nothing to indicate that the SCRAMs             activities used to track and account for
resulted from work or project scope             contractor work. We found the contractor
tied to FY 2005 milestone and winning           was using a one-of-a-kind cost accounting
performance achievements. Currently,            system which was developed to bill TVA
management is taking actions to address         in accordance with billing terms. The cost
all issues identified in the root cause         accounting system consists of Access data-
analysis reports and problem evaluation         bases and Excel spreadsheets and—
reports. In addition, based on informa-
tion provided by the Nuclear Power              ‰ Has limited system design docu-
                                                mentation and prescribed controls.
Group Controller, we found the cost of
the BFN Unit 1 project through FY 2007          ‰ Requires significant manual data
to be approximately $1.84 billion. ■            entry.




0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 2 8 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Material Ordered                             recommended the Vice President, WBN
                                                                                        ‰ For three, a lack of records prevent-
by Watts Bar Unit                            Unit 2, take actions to inform TVA and
                                             contractor personnel of the required
                                                                                        ed the verification of lease payment cal-
2 Construction                               procurement processes and procedures
                                                                                        culations and/or compliance with other

Contractor                                   and provide training, as deemed ap-
                                                                                        key provisions of the contract.

We initiated an inspection project to re-    propriate. Management agreed with our      ‰ For four, there were unapproved
view concerns expressed to the OIG re-       recommendations and took actions to        additions at three campgrounds and an
garding the direct purchase of slings for    address the issue. ■                       unapproved modification at a marina.
the WBN Unit 2 project. In summary,
                                                                                        ‰ For three, seasonal guests were given
we found that a contractor superinten-       Marina and                                 preference to return to their site each
dant did not follow prescribed procedure     Campground                                 year and were allowed to leave camping
when he wrote and processed a purchase
                                             Agreements                                 vehicles and equipment on-site while the
requisition. The contractor Construc-                                                   campground was closed.
                                             We conducted eight inspections of ma-
tion Manager stated that: (1) the slings
                                             rina and campground license and lease
were ordered without following pro-                                                     ‰ TVA had provided no written guid-
                                             agreements at the request of the Chief     ance for the management of these agree-
cedure because they thought it would
                                             Financial Officer organization to de-      ments, including verification of the ac-
expedite receipt of the slings, and (2) he
                                             termine whether: (1) payments to TVA       curacy of payments received.
now realizes that was the wrong thing
                                             were accurate and timely and (2) TVA
to do and that Procurement was able to
                                             and the counterparties complied with       ‰ Operations Business Services per-
obtain the material just as quickly. More                                               sonnel recently requested documenta-
                                             key provisions of the agreements. Under
importantly, he also told us that he was                                                tion from the counterparties to support
                                             the terms of the agreements, counter-
unaware there was a procedure in place                                                  gross revenues earned in the period
                                             parties were provided use of TVA land,
that required material to be ordered by                                                 prior to being invoiced by TVA. This
                                             adjoining shore land, and associated
Procurement.                                                                            appears to address certain invoicing and
                                             equipment and facilities for commercial
                                             recreation purposes and the benefit of     payment controls; however, the agree-
Based on the information obtained, we
                                             the general public. TVA was to be paid a   ments had not been amended to reflect
                                             fee for the use of the property based on   these changes.
                                             a percentage of gross revenue, with the    TVA management generally agreed
                                             exception of one agreement which had       with our findings and recommenda-
                                             a fixed payment amount. TVA refers to      tions and has taken or plans to take
                                             these contracts as “percentage of gross”   corrective actions. ■
                                             contracts. In summary, our review of
                                             the eight selected marina and camp-
                                             ground agreements found—

                                             ‰ For five, payments appeared to be
                                             calculated in accordance with payment
              Watts Bar Nuclear Plant        terms.




                                                                 0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                 0 0 S E M I A N N U A L _ R E P O R T _ P G 2 9 0 1 0
                                                                 1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
                                                               provide documen-
                                                                                         Tishomingo County
                                                               tation to show the
                                                               recipients of fund bal-
                                                                                         Development
                                                               ance distributions or
                                                                                         Foundation Easement
                                                                                         We performed an inspection of TVA’s
                                                               the reallocation of the
                                                                                         easement with the Tishomingo County
                                                               funds beyond 2006
                                                                                         Development Foundation (TCDF) to
                                                               closeout memoranda
                                                                                         determine whether easement payments
                                                               from TVA to the re-
                                                                                         were made in accordance with the agree-
                                                               cipients that certified
                                                                                         ment. Under terms of the easement,
                                                               that the contract re-
                                                                                         TCDF was to develop, construct, operate,
                                                               quirements had been
          Fooshee Pass Campground                                                        and maintain commercial resort facilities
                                                               met and that funds
                                                                                         with all necessary appurtenances thereto.
                                                               had been used as re-
                                                                                         TVA was to be paid a fee for use of the
Trust Funds                                                    quired by the contract.
                                                                                         property based on the greater of: (1) a
Administered by                             In addition, TVA management could not
                                                                                         percentage of annual gross revenues or
                                            provide us with: (1) account statements
Economic Development                        for 11 of the 16 trust accounts, (2) bank
                                                                                         (2) a guaranteed minimum payment
We performed an inspection of 16 trust                                                   specified in the easement. Subsequent to
                                            account numbers for 6 of the 16 trusts,
funds administered by Economic Devel-                                                    the execution of the easement between
                                            or (3) the underlying agreements for half
opment (ED) to determine whether the                                                     TVA and TCDF, TCDF leased the ease-
                                            the trusts. Because of the limited docu-
trust funds were administered in accor-                                                  ment area to a third party, Pickwick
                                            mentation, we were unable to determine
dance with the terms of the agreements                                                   Pines Marina Incorporated (PPM).
                                            whether the trust funds are being ad-
and applicable laws and regulations.
                                            ministered in accordance with the terms      We reviewed easement payments made
Due to the inability of TVA manage-
                                            of the agreements and applicable laws        to TVA by TCDF through June 30, 2008.
ment to provide documentation of all
                                            and regulations.                             We found that while TCDF was not in
trust agreements and account activity,
                                                                                         compliance with amended easement
we were unable to achieve this objective.   If TVA should establish trusts under
                                                                                         payment provisions, the payment pro-
We found the majority of the trust funds    ED in the future, we recommended that
                                                                                         visions were recently amended for the
were inactive and according to ED man-      the Senior Vice President (SVP), ED,
                                                                                         second time to provide the developer,
agement, had been established between       establish controls designed to provide
                                                                                         PPM, an opportunity to develop and
1983 and 1991 for a variety of purposes.    reasonable assurance that all trust fund
                                                                                         operate the marina. We also noted that
ED management said they found no ac-        money is administered in accordance
                                                                                         the minimum investment provision of
tivity in the majority of these trusts.     with the terms of the trust agreements
                                                                                         the easement has not been met. On Au-
                                            and applicable laws and regulations. ED
ED closed the identified trusts on its                                                   gust 6, 2008, TCDF sent PPM a notice of
                                            management generally agreed with our
books and removed the balances from                                                      default. ■
                                            recommendation. However, the SVP,
TVA’s general ledger. However, docu-
                                            ED, stated that TVA no longer establishes
mentation of the trust agreements was
                                            trust accounts and it is not TVA’s intent
limited. TVA management could not
                                            to do so in the future. ■



0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 3 0 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
TVA Enterprise Risk                                                                                       to mitigation, would help

Management                                                                                                management systematically
                                                                                                          identify which risk mitiga-
In 2003, the OIG evaluated TVA’s ERM
                                                                                                          tion strategies are critical
program. Since then, TVA has embarked
                                                                                                          and therefore need close
on a significant effort to enhance its
                                                                                                          monitoring.
ERM capabilities. At the request of the
President and Chief Executive Officer, we                                                                 ‰ The role of the Board
conducted a follow-up evaluation to as-                                                                   and the Executive Risk
sess TVA’s ERM program. In summary,                                                                       Council in defining TVA’s
we found—                                                                                                 risk tolerance should be
                                                                                                          addressed in a risk policy
‰ TVA has made significant progress                                                                       document. Furthermore,
surrounding enterprise risk identifica-
                                                                                                          a formal risk policy docu-
tion and assessment since the 2003 OIG
                                                                                                          ment that is reviewed and
review. Approaches and techniques used
                                                                                                          approved by the Enterprise
are consistent with observed industry
                                                                                                          Risk Council and the Board
practices.
                                                                                                          should be developed.
‰ The risk management tone set by                                                                         ‰ Regular reporting and
TVA’s senior executives is strong and
                                                                                                         discussion of ERM related
compares favorably to what is observed
                                              pears to be a reasonable set of enterprise                 items with the Board is cur-
within the industry.
                                              type risks, it is not clear from the mate-     rently minimal.
‰ TVA’s ERM program is at a critical          rials reviewed how a single risk affects       Management generally agreed with our
juncture. The base infrastructure with        multiple corporate objectives, and how         findings and recommendations and is tak-
respect to risk identification and risk as-   multiple risks affect a single corporate       ing or plans to take corrective action. ■
sessment, coupled with the strong “tone       objective. Establishing this linkage will
at the top,” puts TVA in a position to        help TVA identify and prioritize risks,
transform the ERM program to support          focus discussions, and allocate resources.
strategic decision making.
                                              ‰ The risk maps currently employed
‰ There are a significant number of           by TVA are consistent with common
executives who recognize the value of the     industry practice. However, single point
ERM program and are actively driving          representations on a risk map do not ad-
the risk management culture within their      equately convey the likelihood and sever-
respective organizations. However, they       ity associated with given risks.
recognize that the level of understanding
and acceptance tends to diminish further      ‰ TVA currently focuses on measur-
down within the organization.                 ing residual risk, or risk that is left over
                                              after mitigations are implemented. Also,
‰ While TVA has identified what ap-           measuring inherent risk, or risk prior



                                                                    0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                    0 0 S E M I A N N U A L _ R E P O R T _ P G 3 1 0 1 0
                                                                    1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
00001010101110000011101010101100011000100111101000101110110111010100010101
00011010SUMMARY_OF10111011011000101000001010100010101011100000111010101011
00001010101110000000111REPRESENTATIVE10100111101000101110110111010100010101
00001010101110001100INVESTIGATIONS111011101010100101010101010101101011001011
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011000100111101000101110110111010100010101
00011010100111010100010111011011101000001010100010101011100000111010101011
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101




    0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
    0 0 S E M I A N N U A L _ R E P O R T _ P G 3 2 0 1 0
    1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Summary of Representative Investigations
During the past six months, we closed        Process for Handling Lost or                 agement and not indicative of the actual
135 cases. While concentrating our ef-       Stolen Computer Equipment                    status of the computer equipment. The
forts and resources on major fraud in-       We initiated a special investigative proj-   OIG will continue its efforts to verify that
vestigations, we also participated in task   ect to determine if: (1) TVA’s policies,     the computers classified as “lost’ or “write-
force projects and joint investigations      procedures, and practices for handling       off” were properly surplused and will
with other agencies, to include procure-     lost or stolen computer equipment were       conduct a separate review to verify TVA
ment fraud working groups in Huntsville,     adequate; (2) those policies, procedures,    information is removed from surplused
Alabama, and Atlanta, Georgia. In the IT     and practices were followed; and (3) lost    computers before their disposition.
realm, we conducted a special investiga-     or stolen computers contained sensitive
tive project evaluating TVA’s process for    or restricted information. We found          Actions in Criminal
addressing the matter of lost or stolen      TVA’s policies, practices, and procedures    Investigations –
computer equipment. Our investigations       for tracking its inventory of computer       Convictions
resulted in three convictions, 14 indict-    equipment were not adequate, and                               “IT security is not
ments, and a criminal pretrial diversion     TVA was unable to track more than                              just an option. It’s a
agreement. We also referred numerous         5,550 computers since August 2004                              responsibility.”
concerns to management for appropri-         when the HP Service Desk (HPSD)                                Paul B. Houston
ate action, and tracked the outcome of                                                                      Special Agent In Charge
                                             inventory system was implemented.                              Investigations
those referrals. We performed a Quality      We also discovered the policies for
Assessment Review (QAR) of the U.S.          handling stolen computers were not
Agency for International Development         consistently followed. Twenty-six
in Washington, D.C. We opened regional       computers were reported to TVA
offices in Huntsville, Alabama, and Nash-
                                                                                          Former BVI Comptroller
                                             Police as stolen. At least one contained
ville, Tennessee, hired three new Special
                                                                                          Pleads Guilty
                                             personally identifiable information such
                                                                                          The contractor group, Bicentennial
Agents, and formed a specialized Fo-         as employee social security numbers. We
                                                                                          Volunteers, Inc. (BVI), connects TVA
rensic Audit Group to support and add        were not able to determine whether the
                                                                                          retirees with volunteer activities and paid
specialized value to Investigations. Fol-    remaining stolen computers contained
                                                                                          contract work. The discovery of financial
lowing are operational highlights.           sensitive or restricted information, al-
                                                                                          irregularities during a review of direct
                                             though we believe the risk is moderate.
                                                                                          deposit travel reimbursements led to our
                                             TVA management agreed with our rec-
                                                                                          investigation. The investigation revealed
                                             ommendations and has begun corrective
                                                                                          that the former BVI Comptroller diverted
                                             action. However, management disagreed
                                                                                          $577,647 from National Emergency As-
                                             with the characterization that they were
                                                                                          sistance, Inc., and BVI bank accounts into
                                             unable to track computer equipment.
                                                                                          her personal accounts. She attempted to
                                             They noted in their response that the
                                                                                          conceal her activities by attributing the
                                             “lost” or “write-off” status in HPSD was
                                                                                          transfers to third parties. As a result of
                                             a default setting used for lifecycle man-
                                                                                          our investigation, she pled guilty _


                                                                  0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                  0 0 S E M I A N N U A L _ R E P O R T _ P G 3 3 0 1 0
                                                                  1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
April 3, 2008 to one count of a ten-count      Theft Investigation Yields                    pornographic Web sites. Though a ma-
federal indictment charging her with           Unlikely Results                              jority of the images had been deleted,
wire fraud, and was sentenced Septem-          An OIG theft investigation being ad-          forensic computer analysis uncovered
ber 25, 2008 to 46 months in federal           dressed jointly with the TVA Police and       evidence tying the officer’s user account
prison plus three years’ supervised re-        local agencies took an unusual turn as        to the affected TVA computer. TVA IS
lease and was ordered to make restitu-         evidence was developed which directly         assisted in the investigation.
tion of $577,647.37.                           led to the state arrests and indictments
                                                                                             TVA Senior Manager
                                               (April and July 2008, respectively) of ten
Environmental Pleas                                                                          Resigns Following Conflict
                                               individuals on charges relating to the
‰ A Tennessee municipal wastewater                                                           of Interest Probe
                                               illegal purchase, sale, and distribution of
treatment plant operator was indicted May                                                    A senior TVA manager resigned as a result
                                               prescription medications. Charges relat-
20, 2008 and pled guilty August 19, 2008, to                                                 of an investigation into allegations that
                                               ing to the thefts predicating the investi-
one count of violating the Clean Water Act.                                                  he failed to manage TVA’s contract with a
                                               gation are anticipated directly. ■
The operator falsely reported that required                                                  computer application vendor in the best
testing had been conducted on discharge        Administrative                                interest of TVA due to his relationship with
entering the TVA watershed. The OIG in-
vestigation was conducted jointly with the
                                               Investigations                                the contractor. In addition, the manager
                                                                                             allegedly misused his TVA position by
                                               “IT Security is important at all levels of
EPA OIG and EPA CID.                                                                         promoting the product. During the course
                                               an organization. Every TVA employee
                                                                                             of the investigation, the manager provided,
‰ An operator with another Tennes-             has responsibility for ensuring that
                                                                                             then confirmed, demonstrably false state-
see wastewater treatment plant entered a       TVA policies are followed and security
                                                                                                          ments to OIG special agents.
pre-trial diversion settlement on August       is properly maintained. A
                                                                                                          Following the manager’s
4, 2008 following a joint investigation by     significant breach of a TVA
                                                                                                          resignation, TVA’s Chief Ad-
the OIG and EPA CID. The investigation         computer system could have
                                                                                                          ministrative Officer / Executive
proved the operator pumped partially           adverse effects across the
                                                                                                          Vice President of Administra-
treated wastewater, a pollutant, into part     Tennessee Valley.”
                                                                                                          tive Services requested that the
of TVA’s watershed management area.
                                                         Nancy J. Holloway                                Chief Ethics and Compliance
                                                      Special Agent In Charge
‰ A Tennessee towing-company owner                              Investigations                            Officer work with the Desig-
was indicted by a state grand jury on April                                                               nated Agency Ethics Official
2, 2008 on two counts Unlawful Pollution       TVA Contract
                                                                                             to ensure that TVA’s Employment Practice
and one count Vandalism. The individual        Security Officer’s
                                                                                             1, Business Ethics, and TVA’s online ethics
was responsible for a diesel truck’s fuel      Employment Terminated for
                                                                                             training appropriately emphasize the use
tank being drained of 80 to 90 gallons of      Computer Misuse
                                                                                             of TVA resources with specific regard to
diesel fuel along a bank that drained into     A TVA contract security officer’s em-
                                                                                             endorsements.
TVA’s watershed area. He pled guilty Sep-      ployment was terminated following an
tember 23, 2008 to the one count Unlaw-        investigation originating from the OIG’s      Investigation Yields
ful Pollution and was sentenced the same       hotline, the “Empowerline.” The officer       Environmental Renewal
date to one year’s probation. A separate       used a proxy blocker Web site to bypass       The OIG received information that a
restitution hearing will be held.              TVA’s security measures and accessed          private citizen authorized the removal



0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 3 4 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
of trees from TVA property being main-         Investigation Addresses                       involved shooting resulting in the death
tained by the United States Forest Service.    Credit Card Misuse                            of an armed subject. The OIG investiga-
The individual had been previously in-         A former contract employee working            tion found that the involved TVA Police
structed not to encroach on the property       at an Alabama TVA fossil plant alleg-         officer acted reasonably and within TVA
without TVA authorization and had been         edly misused his government credit card       Police shooting policy and guidelines.
shown the shoreline management zone            while working at TVA. Investigation
on two separate occasions. As a result                                                       Management Referrals
                                               gave credence to the claim, and the indi-
of a joint OIG and TVA Police investiga-                                                     Investigations continues to act as a ro-
                                               vidual was subsequently indicted in Ala-
tion, he was found to have directed the                                                      bust conduit for resolution of a wide
                                               bama state court. The individual, how-
removal of more than 100 trees from the                                                      variety of concerns in addition to fraud,
                                               ever, had relocated. Our investigation
relevant property. The individual was                                                        waste, and abuse. As with criminal mat-
                                               continued, finding the former contractor
given the opportunity to resolve TVA’s                                                       ters, Investigations receives informa-
                                               had left the Valley region and was serv-
claims against him by agreeing not to                                                        tion relating to such issues through our
                                               ing on active military duty. After his unit
engage in further unauthorized activities                                                    Empowerline reporting system (www.
                                               was contacted, TVA received reimburse-
on TVA property, allowing TVA to cross                                                       oigempowerline.com), e-mail, telephone
                                               ment from the former contractor total-
his property without charge to perform                                                       calls, letters, and face-to-face contacts.
                                               ing $3,515 and charges were dropped.
restoration activities on the damaged                                                        These concerns include such diverse is-
property, and paying TVA $27,700 for the       Contract Hauler Revamps                       sues as nuclear safety concerns, sabotage,
cost of restoration activities to the dam-     Tare Calculations                             reprisal, harassment, and whistleblower-
aged property.                                 An investigation into the method used to      related matters. Those issues not directly
                                               determine tare weights of trucks hauling      relating to our scope of involvement are
Investigation Leads to                         ash from a TVA fossil plant led to a re-      referred to the TVA Ombudsman, TVA
Recouped Payments                              vised practice benefitting TVA. Prior to      Human Resource officials, supervisory
A former TVA employee and Office               the investigation, a contractor obtained      and operational managers, and TVA Po-
of Workers’ Compensation Programs              only one truck tare weight and applied        lice administrators.
(OWCP) claimant was investigated fol-          that number to all trucks without regard
lowing a complaint alleging the former                                                       Task Forces
                                               for such differences as fuel tank levels, a
employee held outside employment                                                             Investigations continues to develop
                                               variance of as much as 800 pounds per
(a violation of federal criminal law). The                                                   cases and critical, subject matter expert
                                               truck. Following the investigation, the
investigation did not substantiate the                                                       liaison contacts through participation
                                               contract company agreed to re-check
original complaint, but did reveal that                                                      in an Environmental Crimes Joint Task
                                               tare weights for each truck and apply full
the individual failed to report his divorce,                                                 Force, Health Care Fraud Task Force,
                                               fuel measures to the benefit of TVA.
making him ineligible to receive compen-                                                     Upper East Tennessee Drug Diversion
sation at the three-fourths rate. OWCP         OIG Assists TVA Police in                     Task Force, and the U. S. Secret Service
issued a preliminary overpayment finding       Fatal Shooting Investigation                  Electronic Crimes Task Force. The value
of $23,564.93 and requested payment in         A Report of Administrative Inquiry was        of participation in these groups is noted
full from the former employee.                 generated following an OIG investiga-         specifically in the convictions, indict-
                                               tion predicated on a request from TVA         ments, and administrative matters noted
                                               Police that the OIG review a TVA Police-      above. ■



                                                                     0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                     0 0 S E M I A N N U A L _ R E P O R T _ P G 3 5 0 1 0
                                                                     1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
00001010101110000011101010101100011000100111101000101110110111010100010101
00011010LEGISLATION_&_REGULATIONS10111011011000101000001010100010101011100000111010101011
0001101010011101010001011101101110100000101010001010101110000011101010101
0001101010011101010001011101101110100000101010001010101110000011101010101
10001101010011101010001011101101110100000101010001010101110000011101010101
0001101010011101010001011101101110100000101010001010101110000011101010101
10001101010011101010001011101101110100000101010001010101110000011101010101
00011010100111010100010111011011101000001010100010101011100000111010101011
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
00001010101110000011101010101100011000100111101000101110110111010100010101




    0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
    0 0 S E M I A N N U A L _ R E P O R T _ P G 3 6 0 1 0
    1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Legislation and Regulations
The OIG in fulfilling its responsibilities                                               risk-based security controls and the
                                             ‰ Establish an IG Council on Integ-
under the IG Act of 1978, as amended,        rity and Efficiency with the missions to    certification and accreditation of non-
follows and reviews existing and pro-        address integrity, economy, and effec-      national-security federal agency infor-
posed legislation and regulations that       tiveness issues that transcend individ-     mation systems. This legislation would
relate to the programs and operations of     ual government agencies, and increase       require each federal civilian agency to
TVA. Although TVA’s Office of the Gener-     the professionalism and effectiveness       appoint a chief information security
al Counsel reviews proposed or enacted       of personnel.                               officer who would have the authority
legislation that could affect TVA activi-                                                to enforce FISMA compliance. The
ties, the OIG independently follows and      ‰ Clarify that the subpoena power           legislation would also substitute for-
                                             of IGs extends to electronic documents
reviews proposed legislation that affects                                                mal annual audits for the current FIS-
                                             and tangible items.
the OIG and/or relates to economy and                                                    MA evaluation process and extend the
efficiency or waste, fraud, and abuse in     ‰ Broaden the requirement for the           audit process to information systems
TVA programs or operations.                  IG semiannual report by making in-          used, operated, or supported on behalf
                                             spection and evaluation reports part of     of an agency by agency contractors or
Major pieces of legislation being fol-
                                             the semiannual process.                     other entities.
lowed by the TVA OIG during the
past six months include the “Inspector       ‰ Require all IG Web sites to be di-        Another piece of legislation the OIG
General Reform Act of 2008” which            rectly accessible from the home page        is following is the Telework Improve-
has the purpose of strengthening the         of agency Web sites, and require that       ments Act of 2008 (H.R. 4106). Tele-
independence of federal Inspectors           all public IG reports or audits be ”eas-    work allows employees to work from
General. Final passage of this bill oc-      ily accessible from a direct link on the    their home or a remote professional
curred in the U.S. Senate and in the         homepage of the Web site of the Of-         office near where the employee lives
U.S. House of Representatives on Sep-        fice of Inspector General” within three     in order to reduce office space costs,
tember 23rd and 27th, 2008, respec-          working days of public release.             energy costs, and to increase employee
tively. When signed into law by the                                                      morale and efficiency.
President this legislation will among
                                             ‰ Raise the annual salary level of 31
                                             specified presidentially appointed IGs      H.R. 4106, was passed by the U.S.
other things—
                                             to Level III of the Executive Schedule,     House on June 3, 2008 and received by
‰ Require Congressional notifica-            plus an additional 3 percent; other IGs     the U.S. Senate on June 4, 2008 where
tion 30 days in advance of a removal or      must receive compensation compa-            it was referred to the Committee on
transfer to another position or location     rable to other senior level executives in   Homeland Security and Governmental
of any IG, along with the reasons for        their department.                           Affairs. Similar legislation, the Tele-
the removal or transfer.                                                                 work Enhancement Act of 2007 (S.
                                             The OIG is also following the pro-
                                                                                         1000), was reported out of the Senate
‰ Require that all IGs have access           posed Federal Information Security
                                                                                         Committee on Homeland Security &
to legal counsel who reports either di-      Management Act of 2008 (S. 3474).
                                                                                         Governmental Affairs on November
rectly to the IG or another IG.              FISMA is the primary law governing
                                                                                         14, 2007. The House bill would _
                                             federal agency IT security, requiring



                                                                  0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                  0 0 S E M I A N N U A L _ R E P O R T _ P G 3 7 0 1 0
                                                                  1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
                                                                                    grams. The House bill would require
                                                                                    the Comptroller General to evaluate
                                                                                    the telework policies in the executive
                                                                                    branch.

                                                                                    The OPM reports that a survey it con-
                                                                                    ducted shows that about 44 percent
                                                                                    of federal agencies provide telework
                                                                                    training to employees.  The TVA OIG
                                                                                    provides such training.

                                                                                    A fourth piece of legislation the OIG
                                                                                    is following is the Government Credit
                                                                                    Card Abuse Prevention Act of 2008 (S.
                                                                                    789). This legislation prescribes that
                                                                                    each executive federal agency require
                                                                                    specified credit card and convenience
                                                                                    card controls and safeguards, includ-
                                                                                    ing periodic risk assessments, audits,
                                                                                    and the reporting of such analyses and
                                                                                    audits. This bill was reported out of
                                                                                    the Senate Committee on Homeland
amend Title 5 of the United States        for purposes of performance appraisal     Security & Governmental Affairs on
Code by adding a new Chapter 65 en-       no distinction is to be made between      August 1, 2008. The bill requires IGs
titled Telework.                          those employees who telework and          to regularly report to the Office of
                                          those who do not. Both bills also pro-    Management and Budget abuses of
Both the Senate and House versions of
                                          vide that an agency’s Continuity of       government credit cards and the per-
the bill would allow federal employ-
                                          Operations Plan would supersede the       sonnel sanctions imposed in response.
ees, with certain specified exceptions,
                                          agency’s telework policy to the extent    As to government travel cards the bill
to telework at least one day a week. 
                                          that they are inconsistent with one an-   would require agency heads to check
Both the Senate and House versions
                                          other. The Senate version would make      the credit history of employees getting
of the bill require each federal agency
                                          federal employees eligible for telework   a government travel card. The House
to designate one full-time employee
                                          unless employers specifically show        version of the bill is H.R. 1395. ■
under the Chief Human Capital Of-
                                          why they should not participate in the
ficer as a Telework Managing Officer to
                                          program and provides for the Director
coordinate and promote teleworking
                                          of Office of Personnel Management
in the agency.  Agencies would also be
                                          (OPM) to submit a report to Congress
required to provide training to par-
                                          assessing the implementations and
ticipating managers, supervisors, and
                                          effectiveness of agency telework pro-
employees. Both bills also provide that



0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 3 8 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Web Page
We invite you to take a tour of our newly
updated Web site at oig.tva.gov. The vid-
eo accessible from that page sheds light
on fraud at TVA. From this site you can
also sign up for automatic notification
about our new audits and inspections.
You will also find a news release section
with the latest information released to
the media.

Also, check out the latest edition of the
OIG Connection, our e-publication to
TVA employees filled with interesting
information about our staff, tidbits on
fraud, and an insightful look into how
the work we do every day impacts TVA
stakeholders and life in the valley.

Come visit us at oig.tva.gov. ■




                                            0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                            0 0 S E M I A N N U A L _ R E P O R T _ P G 3 9 0 1 0
                                            1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
00001010101110000011101010101100011000100111101000101110110111010100010101
00011010APPENDICES10111011011000101000001010100010101011100000111010101011
0001101010011101010001011101101110100000101010001010101110000011101010101
0001101010011101010001011101101110100000101010001010101110000011101010101
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101
0001101010011101010001011101101110100000101010001010101110000011101010101
0001101010011101010001011101101110100000101010001010101110000011101010101
00011010100111010100010111011011101000001010100010101011100000111010101011
00011010100111010100010111011011101000001010100010101011100000111010101011
00001010101110000011101010101100011010100111101000101110110111010100010101




   0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
   0 0 S E M I A N N U A L _ R E P O R T _ P G 4 0 0 1 0
   1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Appendix 1
Index on Reporting Requirements Under The IG Act

       Reporting                                         Requirement                                          Page

 Section 4(a)(2)       Review of Legislation and Regulations                                                  37-38

 Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                                         21-35

 Section 5(a)(2)       Recommendations With Respect to Significant Problems, Abuses, and Deficiencies         21-35

 Section 5(a)(3)       Recommendations Described in Previous Semiannual Reports on Which Corrective           None
                       Action Has Not Been Completed

 Section 5(a)(4)       Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions     Appendix 4
                       That Have Resulted

 Section 5(a)(5) and   Summary of Instances Where Information Was Refused                                     None
 6(b)(2)

 Section 5(a)(6)       Listing of Audit Reports                                                             Appendix 2

 Section 5(a)(7)       Summary of Particularly Significant Reports                                            21-35

 Section 5(a)(8)       Status of Management Decisions for Audit Reports Containing Questioned Costs         Appendix 3

 Section 5(a)(9)       Status of Management Decisions for Audit Reports Containing Recommendations          Appendix 3
                       That Funds Be Put to Better Use

 Section 5(a)(10)      Summary of Unresolved Audit Reports Issued Prior to the Beginning of the Reporting     None
                       Period

 Section 5(a)(11)      Significant Revised Management Decisions                                               None

 Section 5(a)(12)      Significant Management Decisions With Which the Inspector General Disagreed            None

 Section 5(a)(13)      Information under Federal Financial Management Improvement Act of 1996                 None




                                                                           0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                           0 0 S E M I A N N U A L _ R E P O R T _ P G 4 1 0 1 0
                                                                           1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Appendix 2
Audit Reports Issued
                                                                                                                            Funds to be Put to
Report Number      Date                           Title                         Questioned Costs    Unsupported Costs          Better Use
CONTRACT
2007-11204      04/03/2008   Performance Contracting, Inc.                          $    115,617            $    23,572           $           0
2007-11476      04/09/2008   Preaward Review-Cost Recovery Rate Recovery                 154,000                154,000                  82,000
                             Under Existing Contract
2007-11208      05/07/2008   Crisp & Crisp, Inc.                                           75,757                 7,961                        0
2007-11208-01   05/07/2008   Crisp & Crisp, Inc.                                          522,212                     0                        0
2007-11109      05/30/2008   Johnson Contractors, Inc                                     644,658               644,658                        0
2008-11751      06/13/2008   Preaward Review-RFP 92607                                          0                     0               26,378,000
2006-033c       06/16/2008   Stone & Webster Construction, Inc.                         1,986,254               402,094                        0
2008-11861      06/30/2008   Preaward Review-RFP 69475                                          0                     0                  533,000
2007-11347      07/08/2008   Sun Technical Services, Inc.-Subcontract with                      0                     0                        0
                             Stone & Webster Construction, Inc.
2008-11549      08/04/2008   Preaward Review-RFP 51507                                         0                        0              1,660,000
2008-11530      09/30/2008   Airgas Specialty Products, Inc.                             110,429                        0                      0
FINANCIAL
2008-11511      04/02/2008   Manage Nuclear Fuel Inventory-SOX 404 Testing
2008-11512      04/02/2008   Nuclear Fuel Burn-SOX 404 Testing
2008-11595      04/02/2008   Cash Receipts-SOX 404 Testing
2008-11597      04/02/2008   Cash Disbursements-SOX 404 Testing
2008-11628      04/03/2008   Capitalized Interest-Allowance for Funds Used
                             During Construction-SOX 404 Testing
2008-11623      04/15/2008   Cash Summary & Transfer-SOX 404 Testing
2008-11696      04/15/2008   Coal Mark-to Market Review-SOX 404 Testing
2008-11587      04/23/2008   Alternative Procurement Methods-Convenience
                             Checks-SOX 404 Testing
2008-11642      04/23/2008   Pensions-SOX 404 Testing
2008-11579      04/29/2008   Managing Fossil Fuel Inventory-SOX 404 Testing
2008-11516      04/30/2008   Manage Contracting-SOX 404 Testing
2008-11556      05/05/2008   Receivables: Cash Management-SOX 404 Testing
2008-11637      05/07/2008   Alternative Procurement Methods-Procurement
                             Card-SOX 404 Testing
2008-11581      05/08/2008   Costing Fossil Fuel Inventory-SOX 404 Testing
2008-11729      05/08/2008   Energy Prepayments-SOX 404 Testing
2008-11733      05/12/2008   Collateral Movement-SOX 404 Testing
2008-11580      05/13/2008   Fossil Fuel Burn-SOX 404 Testing
2008-11582      05/14/2008   Receive Fossil Fuel Inventory-SOX 404 Testing
2008-11613      05/15/2008   Executive Compensation-SOX 404 Testing
2008-11687      05/20/2008   Investments Balance Verification-SOX 404 Testing
2008-11684      05/30/2008   Agreed-upon Procedures-2007 Green Power
                             Accreditation
2008-11578      06/04/2008   Maintain Fossil Fuel Master File-SOX 404 Testing
2008-11795      06/11/2008   Nuclear Decommissioning Trust Fund-SOX 404
                             Testing
2008-11757      06/12/2008   Employee and Other Post Employment Benefits-
                             SOX 404 Testing
2008-11794      06/18/2008   Alternative Procurement Methods-Miscellaneous
                             vouchers-SOX 404 Testing




0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 4 2 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
                                                                                                                                               Funds to be Put to
 Report Number           Date                               Title                          Questioned Costs         Unsupported Costs             Better Use

 2008-11698          06/23/2008      Bulk Power Trading-SOX 404 Testing
 2008-11735          07/15/2008      Disbursing Payroll-SOX 404 Testing
 2008-11818          07/17/2008      Liability Account Accruals and Reconciliation-SOX
                                     404 Testing
 2008-11681          07/28/2008      Alternative Procurement Methods-Gold Card-SOX
                                     404 Testing
 2008-11841          07/29/2008      Gas: Physical-SOX 404 Testing
 2008-11843          07/29/2008      Maintaining Payroll Master Files-SOX 404 Testing
 2008-11777          07/30/2008      Recording Time-SOX 404 Testing
 2008-11778          07/30/2008      Pay Employees-SOX 404 Testing
 2008-11779          07/30/2008      Accounts Payable-SOX 404 Testing
 2008-11765          08/07/2008      Payroll Deductions and Payments-SOX 404
                                     Testing
 2008-11809          08/21/2008      Manage Site Material and Record Inventory
                                     Movement-SOX 404 Testing
 INFORMATION TECHNOLOGY
 2008-11596     04/10/2008           MAS200-SOX 404 Testing
 2008-11555          04/16/2008      Change Control-SOX 404 Testing
 2008-11710          04/29/2008      eCash Application-SOX 404 Testing
 2008-11667          05/13/2008      Integrated Business Systems Application-SOX 404
                                     Testing
 2008-11711          05/22/2008      HRIS, HRIS Benefits, and HRIS Retiree Medical
                                     Applications-SOX 404 Testing
 2008-11216          06/02/2008      TVA Actions to Protect Social Security Numbers
                                     and Eliminate Unnecessary Use
 2008-11780          06/11/2008      WebTrader Application-SOX 404 Testing
 2008-11791          06/12/2008      Computer Operations-Software Configuration
                                     Management-SOX 404 Testing
 2008-11754          06/13/2008      Computer Operations-Manage Facilities-SOX 404
                                     Testing
 2008-11731          06/19/2008      Access to Programs and Data-SOX 404 Testing
 2008-11776          06/20/2008      Computer Operations-Batch Job Scheduling-SOX
                                     404 Testing
 2008-11815          07/01/2008      Program (System) Development-SOX 404 Testing
 2008-11840          07/02/2008      Fuelworx Application-SOX 404 Testing
 2008-11856          07/23/2008      Payroll Application-SOX 404 Testing
 2008-11848          07/24/2008      Computer Operations-Backup and Restore-SOX
                                     404 Testing
 2008-11846          07/25/2008      Power Billing Application-SOX 404 Testing
 2008-11850          07/25/2008      eRemittance Application-SOX 404 Testing
 2008-11847          07/28/2008      MV90 Application-SOX 404 Testing
 2008-11852          07/30/2008      eWorkplace Application-SOX 404 Testing
 2008-11844          07/31/2008      CWMi Application and Interfaces-SOX 404 Testing
 2008-11845          07/31/2008      Passport Application-SOX 404 Testing
 2008-11388          08/21/2008      Sequoyah Nuclear Plant-Cyber Security
                                     Assessment
 2008-11964          09/25/2008      Federal Information Security Management Act
                                     Evaluation
       Total:                        70                                                       $3,608,9271               $1,232,285                $28,653,0002

Note: On the OIG Web site, a summary or a full report can be found for some of the audits listed (http://oig.tva.gov).
1 Questioned costs include $522,212 for unreasonable or unnecessary expenditures not recoverable.
2 Funds put to better use include $26,378,000 identified in a preaward review of a proposal where the contract had not yet been awarded by TVA as of the end of the
   semiannual period.

                                                                                    0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                                    0 0 S E M I A N N U A L _ R E P O R T _ P G 4 3 0 1 0
                                                                                    1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Appendix 3
Table I—Total Questioned and Unsupported Costs

                                                                                                           Number of                                Unsupported
                                              Audit Reports                                                 Reports       Questioned Costs             Costs
    A. For which no management decision has been made by the commencement of the period                         0                 $          0           $          0
    B. Which were issued during the reporting period                                                            7                   3,608,927             1,232,285
    Subtotal (A+B)                                                                                              7                  3,608,927              1,232,285
    C. For which a management decision was made during the reporting period                                    61                     3,498,498              1,232,285
    1. Dollar value of disallowed costs                                                                         6                   1,802,190                 766,937
    2. Dollar value of costs not disallowed                                                                     3                   1,696,308                 465,348
    D. For which no management decision has been made by the end of the reporting period                        1                   1,193,194                       0
    E. For which no management decision was made within six months of issuance                                  0                            0                      0


Table II—Funds to be Put to Better Use

                                                                                                                               Number of          Funds To Be Put
                                                           Audit Reports                                                        Reports            To Better Use
    A. For which no management decision has been made by the commencement of the period                                               0              $              0
    B. Which were issued during the reporting period                                                                                  4                  28,653,000
    Subtotal (A+B)                                                                                                                    4                  28,653,000
    C. For which a management decision was made during the reporting period                                                           4                  28,653,000
       1. Dollar value of recommendations agreed to by management                                                                     3                  28,120,000
       2. Dollar value of recommendations not agreed to by management                                                                 1                       533,000
    D. For which no management decision has been made by the end of the reporting period                                              0                             0
    E. For which no management decision was made within six months of issuance                                                        0                             0



Appendix 4
Investigative Referrals And Prosecutive Results1

                                              Referrals
                                                Subjects Referred to U.S. Attorneys                                 7
                                                Subjects Referred to State/Local Authorities                        5
                                              Results  3


                                                Subject Indicted                                                    14
                                                Subjects Convicted                                                  3



1
  The total number of reports differs from the sum of C(1) and C(2) when the same report(s) contain both recommendations agreed to by management
   and others not agreed to by management.
2
  These numbers include task force activities and joint investigations with other agencies.
3
  Results include referrals from prior periods.




0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 4 4 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Appendix 5
Highlights - Statistics

 	                                                                Sept. 30	            March 31	      Sept. 30	     March 31	      Sept. 30.
 	                                                                 2008	                2008	          2007	         2007	           2006
 AUDITS					
 AUDITS IN PROGRESS					
 Carried Forward		                         47		   35		                                                      36		          16		           20	1
 Started		                                 53		   52		                                                      72		          42		           23
 Canceled		                                (2)		  (2)		                                                     (7)		         (4)		          (1)
 Completed		                              (70)		 (38)		                                                    (66)		        (18)		         (26)
 In Progress at End of Reporting Period		  28		   47		                                                      35		          36		           16
 AUDIT RESULTS (Thousands)					
 Questioned Costs	          $	 3,609	 $	   774	 $	 4,635	 $	 1,252	 $	 1,411
 Disallowed by TVA		 1,802	              	 370		 3,324		 1,429		 782
 Recovered by TVA		 676		 3,339		 1,274		 695		 793
 Funds to Be Put to Better Use	 $	 28,653	 $	100,990	 $	 19	 $	 8,913	 $	10,839
 Agreed to by TVA		 28,120		 53,987		 8,529		 4,534		 2,790
 Realized by TVA		 26,460		 53,987		 948		 3,603		 2,287
 OTHER AUDIT-RELATED PROJECTS					
 Completed		                                      7		   6		                                                17		 12		                    11
 Cost Savings Identified/Realized (Thousands)	 $	 0	 $	 0	 $	                                               0	 $	 103	 $	                0
 INVESTIGATIONS2					
 INVESTIGATION CASELOAD					
 Opened		 161		                                 155		                                                     113		 73		                    70
 Closed		 135		                                 121		                                                     121		 50		                   105
 In Progress at End of Reporting Period		 200		 174		                                                     140*		 148*		                113
 INVESTIGATIVE RESULTS (Thousands)					
 Recoveries	                       $	 632.6	 $	 25,262	 $	                                                 27	 $	 332	 $	 643
 Savings		                              0		 4,137		                                                       575		 88		 1,039
 Fines/Penalties		                      1.6		      206		                                                    1		 10		        0.5
 MANAGEMENT ACTIONS					
 Disciplinary Actions Taken (# of Subjects)		             15		  9		                                          8		          4		            6
 Counseling/Management Techniques Employed (# of Cases)		  6		 16		                                          3		          7		           14
 PROSECUTIVE ACTIVITIES (# of Subjects)					
 Referred to U.S. Attorneys		             7		 19		                                                           5		          6		             3
 Indicted		                              14		  4		                                                           6		          2		             1
 Convicted		                              3		  3		                                                           2		          2		             1
 INSPECTIONS					
Completed		                                      16		   8		   16		                                                        7		           20
Cost Savings Identified/Realized (Thousands)	 $	  0	 $	 0	 $	 15	 $	                                                     15	   $	        0
				                                                                                                                         	




1 Adjusted from previous semiannual report.
2 These numbers include task force activities and joint investigations with other agencies.




                                                                                        0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                                                        0 0 S E M I A N N U A L _ R E P O R T _ P G 4 5 0 1 0
                                                                                        1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
Glossary                                                           Abbreviations
Disallowed Cost – A questioned cost that management, in a          and Acronyms
management decision, has sustained or agreed should not be
                                                                   The following are acronyms and abbreviations widely used in
charged to the agency.
                                                                   this report.
Final Action – The completion of all management actions,            BFN .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Browns Ferry Nuclear Plant
as described in a management decision, with respect to audit        BVI.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  Bicentennial Volunteers, Inc.
                                                                    CEO .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Chief Executive Officer
finding and recommendations. When management concludes
                                                                    CID.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  Criminal Investigation Division
no action is necessary, final action occurs when a management       CRS .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Center for Resource Solutions
decision is made.                                                   ED.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Economic Development
                                                                    E&Y.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  Ernst & Young LLP
Funds Put To Better Use – Funds, which the OIG has disclosed        ERM.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Enterprise Risk Management
in an audit report, that could be used more efficiently by re-      EPA.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Environmental Protection Agency
                                                                    FISMA .  .  .  .  .  .  .  .  .  .  .  .  . Federal Information Security Management Act
ducing outlays, deobligating program or operational funds,          FY .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Fiscal Year
avoiding unnecessary expenditures, or taking other efficiency       GRT. . . . . . . . . . . . . . . . . . . . . . . . . . Grand Rivers Terminal
measures.                                                           HPSD.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  HP Service Desk
                                                                    IG.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Inspector General
Management Decision – The evaluation by management of               IG Act.  .  .  .  .  .  .  .  .  .  .  .  .  .  Inspector General Act Amendments of 1988
                                                                    IS.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  Information Services
the audit findings and recommendations and the issuance of a
                                                                    IT.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Information Technology
final decision by management concerning its response to such        OPM.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Office of Personnel Management
findings and recommendations.                                       OWCP .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Office of Workers’ Compensation Program
                                                                    PCIE.  .  .  .  .  .  .  .  .  .  .  .  .  .  . President’s Council on Integrity & Efficiency
Questioned Cost – A cost the IG questions because: (1) of           PII .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Personally Identifiable Information
an alleged violation of a law, regulation, contract, cooperative    PPM.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Pickwick Pines Marina
                                                                    QAR .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Quality Assessment Review
agreement, or other document governing the expenditure of           SEC.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Securities and Exchange Commission
funds; (2) such cost is not supported by adequate documenta-        SOX .  .  .  .  .  .  .  .  .  .  .  .  . Section 404 of the Sarbanes-Oxley Act of 2002
tion; or (3) the expenditure of funds for the intended purposes     SSN .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Social Security Numbers
                                                                    SVP.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Senior Vice President
was unnecessary or unreasonable.                                    TCDF.  .  .  .  .  .  .  .  .  .  .  .  .  . Tishomingo County Development Foundation
                                                                    TVA.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  Tennessee Valley Authority
Unsupported Costs – A cost that is questioned because of the
                                                                    TVAN.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  Tennessee Valley Authority Nuclear
lack of adequate documentation at the time of the audit.            WBN .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . Watts Bar Nuclear Plant




0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
0 0 S E M I A N N U A L _ R E P O R T _ P G 4 6 0 1 0
1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
OIG Leadership
Philosophy
The TVA OIG strives to be a high
performing organization made up of
dedicated individuals who are em-
powered, motivated, competent, and
committed to producing high quality
work that improves TVA and life in
the Valley.
                                                                      Tennessee Valley Authority
Each of us has important leadership,                                 Office of the Inspector General
management, team, and technical                                       400 West Summit Hill Drive
                                                                      Knoxville, Tennessee 37902
roles. We value integrity, people,
open communication, expansion of       The OIG is an independent organization charged with conducting audits, inspec-
knowledge and skills, creative prob-   tions, and investigations relating to TVA programs and operations, while keeping the
lem solving and collaborative deci-    TVA Board and Congress fully and currently informed about problems and deficien-
sion making. ■                         cies relating to the administration of such programs and operations.

                                       The OIG focuses on: (1) making TVA’s programs and operations more effective and
                                       efficient; (2) preventing, identifying, and eliminating waste, fraud, and abuse and viola-
                                       tions of laws, rules, or regulations; and (3) promoting integrity in financial reporting.

                                       If you would like to report to the OIG any concerns about fraud, waste, or abuse involv-
                                       ing TVA programs or violations of TVA’s Code of Conduct, you should contact the
                                       OIG Empowerline system.   The Empowerline is administered by a third-party contrac-
                                       tor and can be reached 24 hours a day, seven days a week, either by a toll-free phone call
                                       (1-877-866-7840) or over the Web (www.oigempowerline.com).   You may report your
                                       concerns anonymously or you may request confidentiality. 

                                       Report Concerns to the OIG Empowerline




                                                               A confidential connection for reporting fraud,
                                                                       waste or abuse affecting TVA.
                                                              www.OIGempowerline.com
                                                                   1-877-866-7840
                                                              EmPowerline™ is sponsored by the Office of the Inspector General
                                                                            and operates independently of TVA.




                                                             0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
                                                             0 0 S E M I A N N U A L _ R E P O R T _ P G 4 7 0 1 0
                                                             1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
00001010101110000011101010101100011010100111101000101110110111010100010101
0000101010111000001110101010110001100010011110100010111011011101010001010
011011001010101010101110TENNESSEE_VALLEY_AUTHORITY001010100010100001101001
1110100000101010001010OFFICE_OF_THE_INSPECTOR_GENERAL1011100000111010101011
01101011100101010101110001011011001010101010101110001010100010100001101001
01100011000100111101000400_WEST_SUMMIT_HILL_DRIVE101110110111010100010101
101100011010100111101000KNOXVILLE,_TENNESSEE_379021011010110111010100010101
00011010100111010100010111011011101000001010100010101011100000111010101011
1100000111010101011000110001001OIG.TVA.GOV11101000101110110111010100010101
00011010100111010100010111011011101000001010100010101011100000111010101011
00011010100111010100010111011011101000001010100010101011100000111010101011

   0 1 1 0 0 1 1 1 0 0 1 0 1 1 0 1 0 0 0 1 0 1 1 0 1 1 0
   0 0 S E M I A N N U A L _ R E P O R T _ P G 4 8 0 1 0
   1 0 0 1 1 0 1 0 1 0 0 1 1 1 0 1 0 1 0 0 0 1 0 1 1 1 0
